<html>
<title> - PROTECTING THE MARITIME BORDERS: LEVERAGING LAW ENFORCEMENT COOPERATION TO ENHANCE SECURITY ALONG AMERICA'S COASTS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
PROTECTING THE MARITIME BORDERS: LEVERAGING LAW ENFORCEMENT COOPERATION 
               TO ENHANCE SECURITY ALONG AMERICA'S COASTS

=======================================================================



                                HEARING

                               before the

                       SUBCOMMITTEE ON BORDER AND

                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2011

                               __________

                           Serial No. 112-37

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
72-257                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Mike Rogers, Alabama                 Henry Cuellar, Texas
Michael T. McCaul, Texas             Loretta Sanchez, California
Paul C. Broun, Georgia               Sheila Jackson Lee, Texas
Ben Quayle, Arizona, Vice Chair      Brian Higgins, New York
Scott Rigell, Virginia               Hansen Clarke, Michigan
Jeff Duncan, South Carolina          Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)

                      Paul Anstine, Staff Director
                   Diana Bergwin, Subcommittee Clerk
            Alison Northrop, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  from the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     4
The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Border 
  and Maritime Security..........................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     7

                               Witnesses

Major General Michael C. Kostelnik (Ret.), Assistant 
  Commissioner, Office of CBP Air and Marine, U.S. Customs and 
  Border Protection, Department of Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Rear Admiral Paul F. Zukunft, Assistant Commandant for Marine 
  Safety, Security, and Stewardship, United States Coast Guard, 
  Department of Homeland Security:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16
Sheriff Tim Donnellon, St. Clair County Sheriff's Office, 
  Michigan:
  Oral Statement.................................................    19
  Prepared Statement.............................................    20
Sheriff Adrian Garcia, Harris County Sheriff's Office, Texas:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25

                                Appendix

Questions From Chairwoman Candice S. Miller for Michael C. 
  Kostelnik......................................................    45
Question From Hon. Mike Rogers for Michael C. Kostelnik..........    47
Questions From Hon. Michael T. McCaul for Michael C. Kostelnik...    47
Questions From Hon. Jeff Duncan for Michael C. Kostelnik.........    48
Questions From Chairwoman Candice S. Miller for Paul F. Zukunft..    49
Question From Hon. Mike Rogers for Paul F. Zukunft...............    50
Question From Hon. Michael T. McCaul for Paul F. Zukunft.........    51
Question From Hon. Benjamin Quayle for Paul F. Zukunft...........    51
Questions From Hon. Scott Rigell for Paul F. Zukunft.............    52


PROTECTING THE MARITIME BORDERS: LEVERAGING LAW ENFORCEMENT COOPERATION 
               TO ENHANCE SECURITY ALONG AMERICA'S COASTS

                              ----------                              


                         Tuesday, July 12, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Rogers, McCaul, Quayle, 
Rigell, Duncan, Cuellar, Jackson Lee, Clarke, and Thompson.
    Also present: Representative Pierluisi.
    Mrs. Miller. Good morning. The Committee on Homeland 
Security, our Subcommittee on Border and Maritime Security will 
come to order.
    This subcommittee is meeting today to hear testimony from 
General Michael Kostelnik, assistant commissioner of CBP's 
Office of Air and Marine; Rear Admiral Zukunft, assistant 
commandant for marine safety, security, and stewardship; 
Sheriff Tim Donnellon from St. Clair County, Michigan; and 
Sheriff Adrian Garcia from Harris County, Texas, on the 
Department of Homeland Security's cooperation in the maritime 
environment.
    The goal of this subcommittee has been to make sure that 
the Department of Homeland Security is adequately securing 
America's many, many miles of border. However, when we talk 
about border security, sometimes we don't think about our 
liquid borders that our Nation has. Our coasts obviously need 
to be secured just like the borders and the deserts of Arizona 
or across the Northern tier of our Nation as well. Of course, 
in Michigan we talk about the long, liquid border with Canada, 
who is our largest trading partner, but, as Mr. Cuellar points 
out often here, we also have a liquid border in Texas, in the 
Rio Grande. All of that needs to be secured.
    As this subcommittee moves forward, I think we need to try 
to zero in on the importance of maritime security for our 
Nation's economic well-being and the threats that are posed to 
the global supply chain that transits the goods and services 
that we depend on across our world's oceans and into our 
waterways. Commerce, obviously, is the lifeblood of our 
Nation's economy. It moves in and out of our ports, up and down 
our rivers. It is certainly both a benefit as well as, 
unfortunately, a vulnerability to those who might seek to do 
harm to us.
    Today I want to focus, really, and concentrate on the 
cooperation that takes place in the maritime environment 
between the multiple agencies that have jurisdiction on our 
Nation's waterways. We have to be mindful of the hard lessons 
learned on September 11. Cooperation, training, and 
collaboration must take place and must be practiced well before 
an incident happens. It goes without saying that meeting key 
stakeholders on the day of an incident is not the way forward.
    Two principal Federal agencies are charged with the 
protection of our ports and maritime security: Customs and 
Border Protection, of course; and the United States Coast 
Guard. Both are represented here today, and we will be looking 
forward to their testimony. The Coast Guard is the lead agency 
for maritime security in America. Customs and Border Protection 
ensures the integrity of the supply chains and enforces custom 
laws.
    The very purpose of this hearing is to make sure that we 
are using our resources in a very prudent, effective, and 
efficient manner to the best of our ability; as well, that we 
are leveraging our local partners and that we are not 
duplicating efforts, which is where our two county sheriffs 
will come in to the equation here this morning.
    It is certainly clear that CBP Air and Marine and the Coast 
Guard can not secure our coastal borders without State and 
local law enforcement assistance. As with other aspects of 
border security, a team approach is required in the maritime 
domain. Local law enforcement agencies are necessary to keep 
our waterways secure. In a time of constrained budgets and 
limited resources, we just can't afford to have wasteful and 
duplicative efforts by different levels of government. The 
American people demand that we try to stretch their hard-earned 
taxpayer dollars, get the most bang for the buck, as the phrase 
often is said. The Coast Guard and the CBP Air and Marine both 
deploy small boats into no fewer than 23 harbors across our 
Nation. We will want to be exploring: Are we fully leveraging 
the potential cost savings of having two agencies located in 
the same port? Or, how they are working together?
    For many years, I have been a strong advocate for 
consolidating Department of Homeland Security facilities to 
save dollars and encourage cooperation, unity of effort, 
information sharing amongst all the different agencies. I think 
it is of note that the Coast Guard and the CBP Air and Marine 
are, in most cases, patrolling the same waters but often they 
are not sharing the same pier space or facilities. A question 
that we will be exploring: Could they? Are there ways that we 
could save dollars and make them more efficient, or at least 
keep efficiencies and save dollars?
    In addition, the Coast Guard has more than 1,000 small 
boats, and the CBP Air and Marine has almost 300 small boats. 
Yet they only use one common platform; that is a 33-foot SAFE 
Boat. Obviously, there are different missions and you need 
different types of equipment for that. But, again, we will want 
to explore if we can benefit from closer cooperation when it 
comes to small-boat acquisitions.
    I am very, very encouraged, however, by the close 
relationship that CBP and the Coast Guard have developed with 
regard to the use of the unmanned aerial vehicles. The Guardian 
maritime variant being used at both Cape Canaveral and Corpus 
Christi brings a very powerful surveillance tool to bear in the 
maritime environment. Technology, properly deployed, can be a 
huge force multiplier in our Nation's security, and I support 
the continued use of UAVs and other proven, cost-effective DOD 
technology in the homeland environment.
    Interagency forums, the Coast Guard's interagency 
operational centers, and the Border Patrol's operational 
integration centers are critical to developing relationships 
and fostering cooperation. Obviously, brick-and-mortar centers 
can't be the solution everywhere. Again, we need to explore 
what kinds of things we need to do.
    The Coast Guard has been at the forefront of development of 
the WatchKeeper software, for example, which can provide an 
internet-based solution for critical information sharing, such 
as vessel arrival time, security screening information, a 
harbor's common operating picture, even the scheduling of 
various maritime assets. While WatchKeeper still needs some 
improvements in order to make it fully operational, this is, I 
think, very exciting technology. It certainly points to how we 
can become more cost-effective and efficient and, again, foster 
communication and collaboration.
    Shiprider and the cross-designation of officers from the 
United States and Canada and other partner nations has become a 
very valuable tool in our Nation's waterways. I understand that 
several Border Patrol agents also graduated from the Shiprider 
course, and I will be interested to hear how they will be 
deployed and how we can fully leverage those capabilities as 
well.
    My hope is that the Department's recent announcement of the 
Maritime Operation Coordination Plan, which establishes a 
framework for maritime operational coordination, information 
and intelligence sharing, and joint responses for events on the 
water, is a recognition of the important work yet to be done in 
this area. The establishment of this plan is an important step 
forward. Again, we will be very interested to hear from our 
witnesses today on how this plan can be implemented, how we can 
benchmark it, what we can do to improve performance within the 
framework of the plan, as well.
    I think that this collaborative approach to border security 
on the water is certainly the way that we need to move forward. 
I would like to say a little parochial here, as a way that we 
have been doing business in our region of the world for quite 
some time. We have a great working relationship between the 
Coast Guard Sector Detroit and the Detroit Sector Border Patrol 
and the State and local officials. Again, I may be a little 
parochial, but I think that is certainly something we want to 
showcase this morning. We think we are an operational model for 
other parts of the Nation, and I am sure Sheriff Harris will be 
telling us about his part of the Nation, as well, and how they 
work so closely together.
    So, we certainly need to make sure that, going forward, our 
plan includes procedures for the best practices in various 
regions across the Nation. Again, I am hopeful that the newly 
established regional coordination mechanism will provide a 
forum for best ideas and practices across our Nation.
    [The statement of Mrs. Miller follows:]
           Prepared Statement of Chairwoman Candice S. Miller
    The goal of this subcommittee has been to make sure the Department 
of Homeland Security is adequately securing America's many miles of 
border. However, when we talk about border security, our liquid borders 
don't immediately come to mind.
    Our coasts must be secured just like the border in the deserts of 
Arizona. Being from Michigan, I often talk about the long liquid border 
with Canada, our largest trading partner, but as Mr. Cuellar points 
out, we also have a liquid border in Texas, the Rio Grande, and that 
too must be secure.
    As this committee moves forward, I plan to zero in on the 
importance of maritime security for our Nation's economic well-being, 
and the threats posed to the global supply chain that transits the 
goods and services we depend on across the world's oceans and into our 
waterways. Commerce is the lifeblood of our Nation's economy; it moves 
in an out of our ports, up and down our rivers--but it is both a 
benefit and a vulnerability that those who seek to do us harm could 
exploit. Today, I want to concentrate on the cooperation that takes 
place in the maritime environment between the multiple agencies that 
have jurisdiction on our Nation's waterways.
    We have to be mindful of the hard lessons learned on September 11--
cooperation, training, and collaboration must take place and must be 
practiced well before an incident happens. It goes without saying that 
meeting key stakeholders the day of an incident is a recipe for 
disaster.
    Two principal Federal agencies are charged with the protection of 
our ports and maritime security--Customs and Border Protection and the 
U.S Coast Guard, who are both represented here today. The Coast Guard 
is the lead agency for maritime security in America, and Customs and 
Border Protection ensures the integrity of the supply chain and 
enforces customs laws. Within 24 nautical miles of the coastline, both 
agencies have some overlapping authorities, and the very purpose of 
this hearing is to make sure that we are using our resources in a 
prudent, effective, and efficient manner, that we are leveraging our 
local partners, and that we are not duplicating efforts.
    It is abundantly clear that CBP Air and Marine and the Coast Guard 
cannot secure coastal borders without State and local law-enforcement. 
As with other aspects of border security, a whole-of-Government 
approach is required in the maritime domain. Local law enforcement 
agencies are necessary to keep our waterways secure. I'm pleased to 
have two local sheriffs with us today to speak to the challenges faced 
by State and locals, and what their experiences have been in fostering 
Federal and local cooperation on a daily basis.
    In a time of constrained budgets and limited resources we cannot 
afford to have wasteful and duplicative efforts by different levels of 
government. The American people rightly demand that we stretch hard-
earn taxpayer dollars to get the most bang for the buck.
    The Coast Guard and CBP Air and Marine both deploy small boats in 
no fewer than 23 harbors across the Nation. Are we fully leveraging the 
potential cost savings of having two agencies located in the same port?
    For many years I have been a strong advocate for consolidating DHS 
facilities to save tax-payer dollars and encourage cooperation, unity 
of effort, and information sharing among different agencies. It 
concerns me is that the Coast Guard and CBP Air and Marine are 
patrolling the same waters, yet they are not sharing pier space or 
facilities.
    In addition, the Coast Guard has more than 1,000 small boats, and 
CBP Air and Marine has more than 297 small boats. Yet they only use one 
common platform--the 33 ft Safeboat. While I understand that there are 
different missions, I do think that we can benefit from closer 
cooperation when it comes to small boat acquisitions.
    I am encouraged however, by the close relationship that CBP and the 
Coast Guard have developed with regard to the use of Unmanned Aerial 
Vehicles. The Guardian Maritime variant being used at Cape Canaveral 
and Corpus Christi brings a powerful surveillance tool to bear in the 
maritime environment. Technology, properly deployed, can be a powerful 
force multiplier for our Nation's security, and I support the continued 
use of UAVs and other proven, cost-effective DoD technology for use in 
the homeland environment.
    Interagency forums, the Coast Guard's Interagency Operational 
Centers and the Border Patrol's Operational Integration Centers are 
critical to developing relationships and fostering cooperation. 
However, brick-and-mortar centers may not be the solution everywhere.
    The Coast Guard has been in the forefront of the development of the 
Watch keeper software, which can provide an internet-based solution for 
critical information sharing such as vessel arrival times, security 
screening information, a harbor's common operating picture, and even 
the scheduling of various maritime assets. While Watch keeper still 
needs improvements in order to make it fully operational, I support 
this cost-effective and efficient effort to foster collaboration and 
communication.
    Shiprider, and the cross-designation of officers from United States 
and Canada, and other partner nations, has become an indispensible tool 
in our Nation's waterways. I understand that several Border Patrol 
Agents have also graduated from the Shiprider course--I will be 
interested to hear how they will be deployed and how their new 
capabilities will be fully leveraged along our Northern border.
    My hope is that the Department's recent announcement of the 
Maritime Operations Coordination Plan--which establishes a framework 
for maritime operational coordination, information and intelligence 
sharing, and joint responses for events on the water is a recognition 
of the important work yet to be done on this area.
    The establishment of this plan an important first step, and I will 
be very interested in hearing from our witnesses today as to how this 
plan will be implemented and what concrete steps will be taken to 
achieve closer cooperation and coordination.
    This so called ``new'' collaborative approach to border security on 
the water is the way we have been doing business for years in our 
region. The great working relationship between the Coast Guard--Sector 
Detroit and the Detroit Sector Border Patrol and State and locals--it 
is an operational model for others Nation-wide to follow.
    What puzzles me is why it took CBP and the Coast Guard so long to 
put out this document. We need to make sure this plan includes 
procedures for the best practices of regions like the Great Lakes and 
Houston to be shared across the Nation. I hope that the newly-
established Regional Coordination Mechanism will provide a forum for 
the best ideas and practices across the Nation to filter up to 
decision-makers within the Coast Guard and CBP.

    Mrs. Miller. At this time, I would like to recognize the 
Ranking Minority Member of the subcommittee, the gentleman from 
Texas, Mr. Cuellar, for his statement.
    Mr. Cuellar. Thank you very much, Madam Chairwoman.
    Before I give my statement, I will ask unanimous consent 
that the gentleman from Puerto Rico, Mr. Pierluisi, be 
authorized to sit for the purpose of questioning witnesses 
during the hearing today.
    Mrs. Miller. Without objection.
    Mr. Cuellar. Thank you very much.
    Madam Chairwoman, I am pleased that the Subcommittee on 
Border and Maritime Security is meeting today to discuss 
``Protecting the Maritime Borders: Leveraging Law Enforcement 
Cooperation to Enhance Security Along America's Coasts,'' and 
following what our Chairman last year had done, Bennie 
Thompson.
    As a Member of Congress representing a district along the 
Southern border, I have long advocated for strengthening our 
land borders while facilitating legitimate trade and commerce 
with our neighbors. That being said, in Texas, as you know, we 
do have the Gulf of Mexico where the Air/Marine is at, the 
Coast Guard is at, but we also have our local folks also, the 
sheriff also, Sheriff Garcia from Harris County. Not only the 
Gulf of Mexico, but in Texas we also have another body of 
water, an international body of water, called the Rio Grande 
that serves as a border between the United States and Mexico.
    The Rio Grande and the lakes along the Texas border are 
some of our great natural resources, but it also presents 
security challenges for Federal, State, and local law 
enforcement. As you know, one of the recent lakes that was 
brought to National attention was Lake Falcon. As you know, 
there have been incidents on the Mexican side with violent 
incidents involving drug smugglers on the Mexican side of 
Falcon Lake. Again, the U.S. portion of that lake is in my 
particular district.
    I am a strong supporter of the efforts that the U.S. 
Customs and Border Protection does and appreciate the work that 
General Kostelnik has been doing to make sure that we have more 
of the UAV presence and of course other assets also, and, of 
course, the work that the Coast Guard is doing to better secure 
these waterways.
    Other than the post operations by the Coast Guard, CBP in 
particular, Border Patrol, it is really the only Federal agency 
that currently patrols the area. As you know, we have been 
pushing to have more presence of what General Kostelnik and the 
Air/Marine folks have been doing down there, but would like to 
have more of the Coast Guard down there. It is in international 
waters. I believe there should be a report that should be 
coming out soon that was mandated. It should have been ready in 
January, but I think it will be done soon. Clearly, I think 
that is something that we all need to take a look and see what 
they say at that particular time.
    We also, as you recall, Madam Chairwoman--and thank you for 
that hearing that we had with the Coast Guard Commandant Papp--
held a recent hearing and were talking about how we can better 
secure the border. I am also--not only the Federal level but I 
know at the State level, the Texas Parks and Wildlife works a 
lot with the Coast Guard. We appreciate the work that they do; 
in particular, also, you know, the work of our local law 
enforcement.
    Today I know we have a sheriff from the northern part of 
the United States. It is a pleasure having your sheriff here. 
Then, of course, Sheriff Garcia from Harris County was able to 
join us here today.
    As a sheriff in a major metropolitan area that includes the 
Houston Ship Channel, a major center for the petrochemical 
industry, he has a very unique perspective on port and maritime 
security matters. He also understands the challenges posed by 
budget cuts and reductions in some of the Federal grant 
programs that local communities like his rely on to assist the 
Federal partners in their homeland security efforts.
    Given these limited resources, agencies across the levels 
of government must do everything possible to make sure that 
they coordinate operations and avoid duplications of efforts 
and make sure that they share the information, the intelligence 
that is so important to make sure that they go after the bad 
guys.
    As I stated at our last hearing, ultimately whether we are 
talking about narcotics or undocumented aliens or those who 
might wish to do us harm, we know that people will take the 
route that they perceive to offer the best opportunity to enter 
the country. If we secure the land borders, people would then 
try to come across our maritime borders and vice versa. I think 
we saw that in the 1980s and 1990s when the effort was in the 
Miami area; then some of us would say that they are going to be 
coming down through Mexico. Sure enough, 10 years later, this 
is what we are facing at this particular time. So, therefore, 
we must take a comprehensive approach to our Nation's border.
    I thank the witnesses for joining us here today. Again, 
Madam Chairwoman, as I have always said, your northern 
perspective and my southern perspective, I think, gives us a 
good idea, but at the same time keeping in mind the maritime 
area also, to cover the United States.
    So I, again, thank you, Madam Chairwoman. I yield back the 
balance of my time.
    Mrs. Miller. I thank the gentleman for his comments, his 
opening statement.
    The Chairwoman would recognize the Ranking Member of the 
full committee, the gentleman from Mississippi, Mr. Thompson, 
for his statement.
    Mr. Thompson. Thank you very much, Madam Chairwoman.
    I welcome our group of witnesses to this very necessary 
hearing.
    Often when Congress examines the issue of border security, 
the focus is limited to the land border, and the Southwest 
border in particular. Meaningful discussion about border 
security must also include America's maritime borders.
    Our Nation has thousands of miles of coastline, lakes, and 
rivers, and hundreds of ports that provide opportunities for 
legitimate travel, trade, and recreation. At the same time, 
these waterways often provide opportunities for terrorists and 
their instrument, drug smugglers, and undocumented persons to 
enter our country. I am pleased that today's subcommittee, 
however, is examining maritime security and how law enforcement 
agencies can work cooperatively to combat these threats.
    The Department of Homeland Security, including the Coast 
Guard and Customs and Border Protection, is at the forefront of 
this effort. I look forward to hearing from our DHS witnesses 
about how CBP and the Coast Guard coordinate their maritime 
security operations to help secure our Nation while avoiding 
duplication of efforts in an arena with multiple law 
enforcement agencies.
    Given the magnitude of the task and our relatively limited 
Federal resources, DHS's cooperation and coordination with 
State, local, and international partners is essential. Resource 
limitations often pose a challenge for State and local 
participation in maritime security efforts, however. State and 
local governments frequently lack adequate funding to deploy 
the personnel and vessels necessary to operate in a maritime 
environment.
    Unfortunately, the House-passed fiscal year 2012 Homeland 
Security appropriations bill makes significant cuts in grant 
programs that assist State and local law enforcement. 
Specifically, the bill will cut grants for State and local 
programs by $1.23 billion, 55 percent less for fiscal year 2012 
when compared to fiscal year 2011 enacted, or $2.1 billion 
below the President's request.
    These cuts, if enacted, would undermine local law 
enforcement maritime security efforts. For example, in places 
like Harris County, Texas, represented by Sheriff Garcia on our 
witness panel, these cuts would seriously provide consequences 
for their ability to help ensure the security of the Houston 
Ship Channel, which is home to numerous petrochemical 
facilities. Similarly, Sheriff Donnellon points out in his 
testimony Operation Stonegarden has been essential in his 
ability to deploy officers in his community. Cutting these 
grant funds would undermine the good work being done in 
communities along both borders.
    While many of the Members on the other side of the aisle 
talk tough on security issues, they fail to put their money 
where their mouths are when it comes to grant funding. In fact, 
they voted overwhelmingly in favor of these cuts, including our 
Chairperson of this subcommittee. These cuts put us at risk. 
All the information we have says that, unless we provide 
resources to our locals, our State, as well as our Federal 
officials to do their job, it makes it almost impossible for us 
to keep America safe. State and local governments are becoming 
adept at doing much with less, but you can only cut so much 
before homeland security begins to suffer.
    I look forward to hearing from our local law enforcement 
witnesses about their work in the maritime security mission, as 
well as what effect these proposed grant-funding cuts may have 
on their efforts to continue to secure their communities.
    I thank the witnesses for their service to the communities 
and our country and for joining us at this hearing today.
    I yield back the balance of my time.
    Mrs. Miller. Other Members of the committee are reminded 
that opening statements may be submitted for the record.
    What I will do is introduce our first three witnesses, and 
then I am going to ask Mr. Cuellar to introduce his sheriff.
    Then we will start testimony with General Kostelnik, who is 
the assistant commissioner of the U.S. Customs and Border 
Protection Office of Air and Marine. The Office of Air and 
Marine is the world's largest aviation and maritime law 
enforcement organization.
    Prior to his current position, the general served as the 
deputy associate administrator for the space station and space 
shuttle at NASA. While he was there, he was responsible for the 
Nation's Human Space Flight program, operating the fleet of 
U.S. space shuttles and leading a 19-nation-member team 
continuing development of the International Space Station.
    Last week was a bittersweet moment for the shuttle. Not 
having a follow-on mission is very distressing.
    Prior to joining NASA, he spent more than 32 years on 
active military duty with the U.S. Air Force serving as a 
fighter pilot, flying F-4s and F-15 aircraft as well as 
experimental aircraft.
    Rear Admiral Zukunft assumed his current position as 
assistant commandant for marine safety, security, and 
stewardship in May of 2010. He is responsible for developing 
and promulgating National marine safety, security, and 
environmental protection doctrine, policy, regulations, as well 
as ensuring policy alignment throughout the Federal Government 
with its international maritime partners.
    Sheriff Tim Donnellon's law enforcement career has been 
with the St. Clair County Sheriff's office for 24 years. He had 
served at all command levels until he was elected sheriff in 
2009. He is a graduate of the U.S. Department of Justice 
Federal Bureau of Investigation's National Academy program and 
holds a master's degree in public safety. He has extensive 
background in narcotics interdiction, criminal investigations 
and death investigations, and special weapons and tactics. His 
department covers 770 square miles of land and has a marine and 
dive division, as well, that covers 110 miles of shoreline.
    I would ask Ranking Member Cuellar to introduce Sheriff 
Garcia.
    Mr. Cuellar. Thank you again, Madam Chairwoman.
    Again, I believe Congresswoman Sheila Jackson Lee knows him 
very well, and, of course, Mike McCaul also knows the sheriff 
very well. But I appreciate this opportunity to introduce 
Harris County Texas Sheriff Adrian Garcia, to welcome him to 
Washington, DC, and to this particular subcommittee.
    Sheriff Garcia heads the largest sheriff's office in Texas 
and the third-largest in the United States. Sheriff Garcia is a 
native of Houston who chose public service as a profession. He 
became an officer with the Houston Police Department in 1980. 
At the HPD, he patrolled neighborhoods, investigated violent 
crimes, developed community policing initiatives, and worked to 
strengthen the relationship between residents and law 
enforcement.
    Sheriff Garcia was elected to the Houston City Council in 
2003. In 2007 the mayor, Bill White, appointed him as mayor pro 
tem.
    Mr. Garcia returned to his law enforcement roots in 2009 as 
the newly elected sheriff, providing the leadership needed to 
bring the Harris County Sheriff's Office into the 21st Century. 
Certainly, my brother, who is also a sheriff at the border, 
talks very highly of Sheriff Garcia.
    Again, the sheriff of Harris County, Adrian Garcia, 
oversees an operating budget of approximately $420 million and 
has a workforce of about 4,000 law enforcement and civilian 
employees.
    His Houston office is also the law enforcement agency for 
the Houston Ship Channel Security District, a corridor that is 
home to 40 percent of the Nation's chemical manufacturing 
capacity and 14 percent of its oil refinery capacity. Sheriff 
Garcia's experience in that capacity is invaluable to our 
discussions here today.
    I thank you for joining us.
    Ms. Jackson Lee. Would the gentleman yield for just a 
moment?
    Mr. Cuellar. Yes, I do.
    Ms. Jackson Lee. He is a constituent, Madam Chairperson.
    Mrs. Miller. Certainly.
    Ms. Jackson Lee. I thank the committee for its indulgence.
    First of all, to all of the witness, but, Sheriff Garcia, I 
would like to welcome you.
    Madam Chairwoman, I just want you to know that Sheriff 
Garcia is a law enforcement's law officer. He has broad 
experience, starting at the Houston Police Department, with his 
knowledge on gang activity, drug interdiction, and now he 
brings a wealth of knowledge as a former member of the Houston 
City Council but who focused on homeland security issues, 
chairing the Homeland Security committee.
    I would expect that his testimony will be provocative and 
instructive of how important it is to provide COPS grants, as 
well as homeland security grants, which I believe will be 
zeroed out. But I know that he will be instructive, and I am 
delighted for his presence here and thank him for his service.
    Thank you for yielding. I yield back.
    Mr. Cuellar. Thank you very much.
    At this time, I yield back.
    Mrs. Miller. Thank you very much.
    We certainly welcome all of the witness here today. We have 
a very distinguished panel. Looking forward to all of the 
testimony. We appreciate all of you gentlemen for being in 
attendance today.
    We will start with turning the floor to General Kostelnik 
for his comments.

    STATEMENT OF MAJOR GENERAL MICHAEL C. KOSTELNIK (RET.), 
  ASSISTANT COMMISSIONER, OFFICE OF CBP AIR AND MARINE, U.S. 
 CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    General Kostelnik. Madam Chairwoman, Ranking Member Cuellar 
and Thompson, it is good to be back with you and the committee. 
It is always a pleasure to come and give you updates on our 
security programs and the kind of things that we have done over 
the past year to make things better.
    I understand this hearing is focused on maritime security, 
but there is both the air/aviation piece as well as the 
physical-boats-on-the-water piece of homeland security. 
Ultimately, we require and project maritime domain awareness 
with a combination of aviation assets, boats and ships on the 
water, information, technical approaches such as the AMOC, and 
other mission sets that we have across the country.
    So I am pleased to give you a brief overview of the kinds 
of things that have been going on in Air and Marine to provide 
improvements, both in our air capabilities, our on-the-water 
capabilities, and, ultimately, not only our physical 
capabilities at facilities such as AMOC in Riverside, 
California, but with partnerships with the other operator of 
aircraft and boats, the U.S. Coast Guard. I think you will find 
there is a rich relationship there.
    On the air picture, we continue to re-wing our P-3. That is 
our largest and most important maritime patrol aircraft. That 
aircraft currently provides almost 60 percent of the total air 
picture in the transit zone, doing great diligence in terms of 
going after some of these go-fast boats and the submarines we 
continue to see in that AOR.
    We are on track with our re-winging program. We have two or 
three of those aircraft we will wing. That program will 
continue, and over the next 2 or 3 years we will buy out that 
program and complete the re-winging effort for all 14 of those 
aircraft. Those aircraft will have an additional 15- to 20-year 
service life and provide the capability to protect the homeland 
and maritime environment, you know, across the spectrum, not 
only in this transit zone where they exist today, but on the 
coasts and environments on the littoral on either side of the 
country and across the Northern border, as well.
    Also remarkable this year, we just rolled out the first of 
what will be a series of multi-role enforcement aircraft. This 
is a true and, indeed, a multi-role aircraft. It is a King Air 
extended-range aircraft that carries a multi-mode radar 
optimized for the air-to-water involvement. We rolled out this 
aircraft a couple months ago here in downtown District of 
Columbia.
    The first of those aircraft, the prototype, is actually 
undergoing operational tests in the Southwest AOR. We expect to 
deliver the first two missionized aircraft before the end of 
this year. There are three additional aircraft that are funded 
and in the process of being equipped that will enter service in 
the next 2 years. Those give us and augment the manned aircraft 
that we have in both the air-to-ground and the air-to-water 
role.
    Obviously, there is a lot of interest now in the unmanned 
assets. You mentioned the Guardian. We took the Guardian to the 
Paris Air Show this year at the request of the U.S. Ambassador 
and the EUCOM, and it was on display in the DOD pavilion. That 
was the first time ever a Reaper-class/Predator B aircraft was 
ever on display at the Paris Air Show, and it created a good 
deal of interest with our partnership nations. The countries of 
France, Italy, and others were very interested in those types 
of vehicles being used for security applications in the 
homeland. So, in that arena, we are on the leading edge of that 
policy.
    In the area of boats in the water, we continue to assess 
boats from the Coast Guard, modernize those and apply those 
both on the Northern and Southern borders. We continue to 
procure new of the larger-class SAFE Boats, the 33 for the 
Coast Guard and 38 boats for us. We expect to be on contract 
for the first of the replacement boats, 17 of which are funded 
to replace the most important, Midnight Express.
    In the area of the Guardian, thanks to this committee and 
other Members in Congress, the aircraft that were funded in the 
last bill, the first two of those aircraft will enter service 
this year, in October. The first one we expect to add and 
augment the Guardian is at Corpus Christi. The second one will 
go to Sierra Vista. With the opportunities that we have, all 
six of those aircraft can fly anywhere between California and 
Louisiana. We have a lot of activity both today in Texas and 
across the Texas border from those aircraft. There will be more 
of those across time. The third Guardian aircraft will be 
delivered sometime after January. All three of these are new 
assets that add to fleet. By the end of January this year, that 
will give us 10 operational unmanned assets that are flying 
nightly from four operational sites in the country.
    The AMOC continues to grow and add expansion. We have added 
processing, exploitation, and dissemination cells that give us 
the back-end work for the Predators to do intel collection. 
That gives us capabilities we did not have. They feed new 
infrastructures we have, like the OIC at Selfridge, and others 
that we are coordinating to build these relationships with us 
and the U.S. Coast Guard to add an unprecedented level of 
domain maritime awareness in the homeland.
    As we look out upon some of the pirating activities, 
clearly this is an emerging threat which needs attention in the 
homeland. I think you will find through testimony and the 
questions that you ask today, that you will find that we and 
the U.S. Coast Guard and the Department of Homeland Security 
are well on track with this regard.
    I look forward to your questions. Thank you.
    [The statement of General Kostelnik follows:]
      Prepared Statement of Major General Michael Kostelnik (Ret.)
                             July 12, 2011
    Chairman Miller, Ranking Member Cuellar, and distinguished Members 
of the subcommittee, it is a privilege and an honor to appear before 
you today to discuss U.S. Customs and Border Protection's (CBP) 
coordination with our law enforcement partners in the maritime 
environment.
    As America's front-line border agency, CBP is responsible for 
securing America's borders against threats, while facilitating legal 
travel and trade. To do this, CBP has deployed a multi-layered, risk-
based approach to enhance the security of our borders while 
facilitating the flow of lawful people and goods entering the United 
States. This layered approach to security reduces our reliance on any 
single point or program that could be compromised and includes close 
coordination with DHS partner agencies, with other U.S. interagency 
partners, and with our international counterparts. It also extends our 
zone of security outward, ensuring that our physical border is not the 
first or last line of defense, but one of many.
    Over the past 2 years, the Department of Homeland Security (DHS) 
has dedicated historic levels of personnel, technology, and resources 
to border security. We have more than doubled the size of the Border 
Patrol since 2004; quintupled the number of Border Liaison Officers 
working with their Mexican counterparts; doubled personnel assigned to 
U.S. Immigration and Customs Enforcement (ICE)-led Border Enforcement 
Security Task Forces; and begun screening southbound rail and vehicle 
traffic for the illegal weapons and cash that are helping fuel the 
cartel violence in Mexico. CBP also received approval from the U.S. 
Department of Transportation's Federal Aviation Administration to 
increase the miles of airspace available for Unmanned Aircraft System 
(UAS) operations, enabling CBP to deploy UASs along the Southwest 
border from the eastern tip of California extending east across the 
border into Texas. In addition, approximately 950 miles along the 
Northern border from Washington to Minnesota are currently covered by 
unmanned aircraft, in addition to approximately 200 miles along the 
Northern border in New York and Lake Ontario. These UASs significantly 
enhance CBP's situational awareness in areas that are difficult to 
reach by other operational elements--a critical capability in the 
rugged terrain along the Northern border.
    While there is still work to be done, every key measure shows we 
are making significant progress along the Southwest border. Border 
Patrol apprehensions have decreased 36 percent in the past 2 years, and 
are less than a third of what they were at their peak. In fiscal year 
2010, CBP seized $147 million in currency (inbound and outbound) at and 
between the ports of entry (POEs), a 34 percent increase from the 
previous fiscal year. CBP also seized 4.1 million pounds of narcotics, 
including 870,000 pounds seized at the POEs, 2.4 million pounds seized 
between the POEs, and 831,000 pounds assisted by Air and Marine 
interdiction agents. These numbers demonstrate the effectiveness of our 
layered approach to security.
    Today I would like to discuss some of the important work carried 
out by the CBP Office of Air and Marine (OAM), which provides aviation 
and marine support to Border Patrol and other Federal, State, local, 
and Tribal partners. OAM currently has over 800 pilots, 350 Marine 
Interdiction Agents, and 40 Aviation Enforcement Officers, as well as 
285 aircraft and 297 marine vessels deployed across 75 locations 
throughout the United States and Puerto Rico. In addition to providing 
interdiction, surveillance, and patrol support, OAM units serve as a 
deterrent of illegal activity on the border.
    In recent years, CBP has significantly expanded OAM operations 
along the Northern border. Since 2004, CBP has opened five 
strategically located Air Branches along the Northern border in 
Washington, Michigan, Montana, New York, and North Dakota. CBP has 
stationed 52 fixed-wing and rotary aircraft on the Northern border, 
including two UASs which began operating out of the Grand Forks Air 
Force Base in Grand Forks, North Dakota in January 2009. In addition, 
since 2009, OAM has opened six new marine units on the Northern border 
in New York, Ohio, Michigan, Pennsylvania, and Washington. Currently, 
CBP operates 29 coastal and 52 riverine vessels and has added 100 new 
marine interdiction officers on the Northern border.
    CBP has operated the Predator B UAS for over 6 years and has 
pioneered the employment of this long duration, remotely-piloted 
aircraft in the National Airspace System (NAS) for border security and 
disaster assistance. Predator Bs, which can operate for more than 20 
hours during a single border search mission, currently patrol along 
both the Southern and Northern U.S. land borders and have logged more 
than 10,000 flight hours in support of CBP's border security mission. 
The newest addition to CBP's UAS family, a maritime search variant of 
the Predator B called the Guardian, carries a broad-area sea-search 
radar with long range detection and tracking capabilities. Together, 
the Guardian and Predator B have assisted in CBP's support and response 
to large-scale natural disasters such as hurricanes, flooding in North 
Dakota, the recent wildfires in Arizona, and the oil spill in the Gulf 
of Mexico; and have positioned CBP to confront evolving threats to the 
homeland.
    In June 2009, CBP conducted Operation Empire Shield--a UAS and P-3 
aircraft surge operation in the Great Lakes region. The operation 
combined the efforts of CBP, ICE, Drug Enforcement Administration 
(DEA), the U.S. Coast Guard (USCG), Royal Canadian Mounted Police 
(RCMP), Canadian Border Services Agency (CBSA), and the New York State 
Police to demonstrate integrated air and marine operations. Employing a 
combined operations center out of Wheeler-Sack Army Air Base, Fort 
Drum, NY, the 3-week operation pursued 244 marine tracks that resulted 
in 85 vessel boardings. This Operation resulted in the seizure of 
$300,000 in cash, cocaine, several vehicles, and the arrest of five 
individuals and paved the way for long-term CBP UAS support agreements 
with Wheeler-Sack.
    CBP is working closely with our partners at the DHS Science and 
Technology Directorate (S&T) to develop and find new capabilities to 
counter the threat posed by low-flying aircraft along the Northern 
border. We recently completed a joint testing program with S&T and the 
USAF Test Pilot School at Edwards Air Force Base, CA to assess our 
current air interdiction capability and find ways to improve our 
effectiveness in detecting and tracking these small aircraft.
    CBP has established the Operational Integration Center (OIC) at 
Selfridge Air National Guard Base in Harrison Township, Michigan. The 
OIC is a demonstration project to enhance border security and 
situational awareness for CBP and its mission partners along a critical 
area of the Northern border by integrating personnel and technology. 
The OIC allows for a collaborative work area and communications 
capabilities for all components of CBP, the U.S. Coast Guard, other DHS 
entities, Federal law enforcement agencies, State and local law 
enforcement, and appropriate Canadian agencies. The OIC brings together 
information feeds, including radar and camera feeds, blue force 
tracking, database query from databases not previously available to 
CBP, remote sensor inputs, Remote Video Surveillance Systems, and 
Mobile Surveillance Systems feeds, and video from various POE, tunnel 
and local traffic cameras. This level of personnel and technology 
integration and cooperation serves as a model for technology 
deployments on the Northern border.
    In addition, DHS components have formed an integrated operations 
group along the Northern border to enhance coordination of air and 
maritime operations in the Great Lakes Region. In the future, DHS plans 
to expand this operations group to include State, local, and Tribal law 
enforcement, and State homeland security counterparts to enhance 
integrated operations, communications, and intelligence-sharing across 
the eight States that comprise the Great Lakes region.
    Within CBP, we established the State, local, and Tribal liaison 
office to enhance collaboration with our State, local, and Tribal 
partners. This office works to inform State, local, and Tribal 
stakeholders of current and proposed CBP programs, assists these 
stakeholders in addressing questions or concerns about CBP programs, 
and assists in building and maintaining partnerships with CBP.
    CBP officers and agents provide support to Integrated Border 
Enforcement Teams (IBET)--comprised of CBP, ICE, USCG, Canadian law 
enforcement and other Federal partners--which work to identify, 
investigate, and interdict individuals and organizations that may pose 
a threat to National security or are engaged in organized criminal 
activity along the Northern border. Similarly, CBP is one of the 
largest contributors of personnel to ICE-led Border Enforcement 
Security Task Force (BEST) units, which bring together Federal, State, 
local, territorial, Tribal, and foreign law enforcement to collaborate 
to identify, disrupt, and dismantle criminal organizations which pose 
significant threats to border security. There are currently 21 BESTs 
throughout the United States. By incorporating integrated mobile 
response capability (air, land, marine), IBET and BEST groups provide 
participating law enforcement agencies with a force multiplier that 
maximizes border enforcement efforts.
    Throughout CBP's history, as well as that of our legacy agencies, 
our officers and agents have been called upon to assist in law 
enforcement missions beyond the border security realm. Our agents and 
officers have been cross-deputized as U.S. Marshals or deputized by 
local law enforcement to assist in National emergency situations. Most 
recently, CBP officers and agents were deputized in North Dakota as 
Cass County deputies by Sheriff Laney to assist in providing relief 
efforts to the community following the flooding that began there this 
past April. OAM provided fixed wing, helicopter, and Unmanned Aircraft 
System surveillance support for the Federal Emergency Management Agency 
and State and local agencies.
    Our employees are on the front lines and work hand-in-hand with 
local and Tribal law enforcement officers. Given that the Border Patrol 
and Air and Marine agents operate in rural and/or remote locations, we 
are often the first on the scene of an accident or we are called upon 
to assist during routine police work. For example, in the Blaine Sector 
in Northern Whatcom County, Washington, CBP communications specialists 
are responsible for 9-1-1 calls, dispatching for the Blaine, Sumas, and 
Lynden Police departments. In September 2010, Air Interdiction Agents 
supported the Whatcom County Sheriff's office in searching for and 
locating a suspect who was firing shots near a residence. A CBP 
helicopter provided aerial support while the arrest was made and the 
trailer in which the suspect was hiding was cleared.
    In the coming year, CBP will continue to expand joint operations by 
exploring a joint command with the USCG at the Air and Marine 
Operations Center (AMOC) in the Great Lakes Region. The AMOC, which 
includes representatives from the USCG, as well as other agencies, 
provides a comprehensive picture of the air environment in the United 
States. The AMOC monitors violations of U.S. airspace, tracks 
potentially dangerous aircraft, and coordinates and expedites the 
appropriate operational response.
    In an effort to increase intelligence and information-sharing among 
our partners, Processing, Exploitation, and Dissemination (PED) cells 
have been established at the AMOC in Riverside, California, and at the 
National Air Security Operations Center in Grand Forks, North Dakota, 
to provide essential information to law enforcement across the Nation--
increasing understanding of evolving threats and providing the 
foundation for law enforcement entities to exercise targeted 
enforcement in the areas of greatest risk. This intelligence-driven 
approach prioritizes emerging threats, vulnerabilities, and risks, 
which greatly enhances our border security efforts.
    In 2005, CBP created a robust information-sharing environment known 
as ``BigPipe,'' which links equipped CBP aviation assets and 
information-sharing protocols to Federal, State, local, and Tribal law 
enforcement agencies to provide near-real time video and sensor data--
enhancing situational awareness for officers across the law enforcement 
community. BigPipe is also used by numerous Federal, State, local, and 
Tribal agencies during warrant presentations, controlled deliveries, 
search and rescue, and surveillance operations.
    Shared situational awareness is instrumental to the effective 
interdiction and apprehension of persons engaged in illegal activity. 
CBP has formal information-sharing agreements with Coast Guard District 
Nine in the Great Lakes region and District Seven in South Florida to 
enhance shared situational awareness, operational coordination, and 
safety. When combined with other collaborative mechanisms such as IBETs 
and BESTs, these partnerships greatly enhance our operational 
capabilities. The goal is for all USCG and CBP platforms, personnel, 
and assets to have the capability and competency to communicate with 
each other in real-time during enforcement actions.
    A further example of National cooperation can be found within the 
Joint Harbor Operations Center (JHOC) in the port of San Diego, 
California. JHOC is a joint maritime command and control center with 
USCG, Border Patrol, OAM, U.S. Navy, San Diego Harbor Police, and 
California National Guard personnel co-located in one facility. 
Information is integrated into a common operational picture which is 
shared by the Coast Guard, the Port of San Diego, U.S. Navy Third 
Fleet, Navy Region Southwest, Navy Fleet Area Control and Surveillance 
Facility San Diego, and the AMOC.
    Chairman Miller, Ranking Member Cuellar, and Members of the 
subcommittee, thank you for this opportunity to testify about the work 
of U.S. Customs and Border Protection. CBP is committed to providing 
our front-line agents and officers with the tools they need to enhance 
the security of America's borders. We look forward to continuing to 
work closely with our Federal, State, local, Tribal, and international 
partners in these efforts. I would be pleased to answer any questions 
you may have at this time.

    Mrs. Miller. Thank you very much, General. We appreciate 
that.
    The Chairwoman now recognizes Rear Admiral Zukunft--am I 
pronouncing you name correctly, sir?
    Admiral Zukunft. ``Zukunft.''
    Mrs. Miller. ``Zukunft,'' okay--for your testimony. Thank 
you.

STATEMENT OF REAR ADMIRAL PAUL F. ZUKUNFT, ASSISTANT COMMANDANT 
  FOR MARINE SAFETY, SECURITY, AND STEWARDSHIP, UNITED STATES 
          COAST GUARD, DEPARTMENT OF HOMELAND SECURITY

    Admiral Zukunft. Good morning, Madam Chairwoman, Ranking 
Member Cuellar, and distinguished Members of the subcommittee. 
Thank you for the opportunity to appear before you and talk 
about Coast Guard cooperation with our law enforcement partners 
at the Federal, State, local, Tribal, and international levels.
    In my current assignment, as the former commander of the 
11th Coast Guard District in California, and also as a former 
director of a joint interagency task force overseeing all drug 
activity on the continent of Asia and 41 other countries, I 
fully appreciate the value of partnerships and that the Coast 
Guard shares with our law enforcement partners in working 
toward a goal of protecting our maritime borders. I am pleased 
to report, those partnerships have thrived in a unified 
Department of Homeland Security.
    Just last Thursday, an unprecedented cross-component 
Maritime Operations Coordination Plan was jointly signed by 
Coast Guard Commandant Admiral Papp, CBP Commissioner Bersin, 
and ICE Director Morton. The Coast Guard executives that 
spearheaded this under a senior guidance team meet on a 
quarterly basis. This culminated in a process to enhance 
operational cooperation, planning, and information and 
intelligence sharing across all of DHS and to facilitate a 
robust and layered approach to maritime security.
    This united effort and layered approach to security 
commences with the alignment at the regional level and 
continues with the sharing of information, both horizontally 
and vertically, within the Department as well as with other 
U.S. Governmental agencies and departments and with 
international partners where authorized and appropriate.
    The unique nature of the maritime domain necessitates this 
layered approach to security. We start this layered approach in 
the global domain. Through the International Ship and Ports 
Facility Security Code, or ISPS Code, there is a world 
assessment regime that ensures international ports and the 
ships departing those ports implement security measures before 
they ever approach our borders.
    In the past 2 years, the Coast Guard's International Port 
Security Program has conducted over 900 port facility 
assessments in more than 150 countries. Ships that depart from 
ports not meeting the requirements of ISPS Code are required to 
take additional security procedures, will be boarded by the 
Coast Guard and our interagency partners prior to entering the 
United States, and, in some cases, may be denied entry into our 
country.
    Furthermore, we also screen ships, cargos, crews, and 
passengers bound for the United States by requiring vessels to 
submit an advanced notice of arrival 96 hours prior to their 
approval in port. The Coast Guard, through our two maritime 
intelligence fusion centers and our Intelligence Coordination 
Center's COASTWATCH unit, works with CBP's National Targeting 
Center to analyze these arriving vessels and to ascertain any 
potential risk these vessels may pose to our security.
    Our March 15 COASTWATCH physically integrated with other 
interagency partners at the National Targeting Center and stood 
up a 247 maritime screening operations at that facility. This 
integration has led to increased information sharing and 
streamlined operations. Our partnership with CBP resulted in 
over 250,000 ships and 71 million people being screened in 2010 
alone.
    In the counternarcotics mission, we are currently entered 
into 37 bilateral agreements and operational procedures that 
facilitate communications with partner nations and enable these 
nations to increase their law enforcement capabilities, further 
deterring drug smugglers who attempt to cross our borders. One 
such example is the collaborative efforts with Mexico and 
Canada through the North American Security Initiative.
    Also, through Joint Interagency Task Force South, we 
utilize Coast Guard cutters as well as U.S. Navy and allied 
partners in our detection/monitoring capabilities across the 
expensive maritime drug-smuggling routes. These surface assets 
are further supported by air assets from the Coast Guard, Navy, 
and CBP. When a target is detected, our law enforcement 
detachments deployed on these ships provide the competencies 
and authorities to enforce the interdiction and support 
prosecution efforts in this mission. Efforts and teamwork such 
as these resulted in the interdiction of over 200,000 pounds of 
cocaine and 36,000 pounds of marijuana in 2010.
    Closer to home, we continued to build our partnership with 
the Royal Canadian Mounted Police. I have also established an 
Operational Integration Center in Selfridge to build that 
collaboration. Our Shiprider project will be completed upon 
ratification by the parliament in Canada.
    Finally, I would like to conclude that we are proud to 
enjoy the partnerships with Federal, State, local, who are 
represented to testify today. These partnerships and joint 
strategies have been and continue to be essential to the 
deterrence and interdiction of all threats headed toward our 
maritime borders.
    Thank you for the opportunity to testify today, and I am 
pleased to entertain your questions.
    [The statement of Admiral Zukunft follows:]
           Prepared Statement of Rear Admiral Paul F. Zukunft
                             July 12, 2011
    Good morning Chairman Miller, Ranking Member Cuellar, and 
distinguished Members of the subcommittee. I am honored to appear 
before you today to speak about Coast Guard cooperation with our law 
enforcement partners at the Federal, State, local, territorial, and 
Tribal levels. I will discuss our current cooperation in the areas of 
maritime drug and alien migrant interdiction as well as joint 
capabilities under development.
                     a layered enforcement strategy
    The Coast Guard has the statutory authority and responsibility 
under 14 U.S.C.  2 and  89 to enforce all applicable Federal laws on, 
under, and over the high seas, in addition to waters subject to the 
jurisdiction of the United States. With this authority, the Coast Guard 
takes a layered approach to interdict threats well before they reach 
our maritime borders by disrupting the maritime movement of illegal 
drugs with a continuous law enforcement presence. This layered approach 
is risk-based and facilitated by our participation within the National 
intelligence community so we can position our limited resources against 
the Nation's most emergent threats. The Coast Guard also plans and 
coordinates risk-based border security, counter-drug, and migrant 
enforcement missions with other Department of Homeland Security (DHS) 
components, particularly Customs and Border Protection (CBP) which 
plays a prominent role in our shared maritime environment and border 
protection strategy. We also benefit from our military, Federal, State, 
local, territorial, and Tribal partnerships in advancing domain 
awareness and conducting joint law enforcement and maritime security 
operations. Our Interagency Operations Center program provides the 
connective command and control to harmonize operations at the local 
level. At the global level, we leverage our 41 counter-drug bilateral 
agreements to level the playing field against maritime drug smugglers 
who operate across borders.
                        international/high seas
    To help deter criminal activity prior to reaching our borders, the 
Coast Guard establishes and fosters strategic relationships with other 
nations. The International Ship and Port Facility Security (ISPS) Code 
provides an international regime to ensure ship and port facilities 
take appropriate preventive security measures similar to our domestic 
regime in the Maritime Transportation Security Act. As part of the 
International Port Security (IPS) Program, Coast Guard men and women 
are placed in foreign ports to assess the effectiveness of 
antiterrorism measures, which ultimately reduces risk to U.S. ports. 
Over the past 2 years, the Coast Guard has conducted assessments at 500 
ports in more than 150 countries. Vessels arriving to the United States 
from non-ISPS compliant countries are required to take additional 
security precautions, submit to boarding by the Coast Guard before 
being granted permission to enter, and may be refused entry in specific 
cases.
    The Coast Guard uses a multifaceted approach to support maritime 
smuggling interdiction that includes deployment of long-range assets 
and Law Enforcement Detachments (LEDET) aboard U.S. Navy and Allied 
assets to support detection, monitoring, interdiction, and apprehension 
operations for Joint Interagency Task Force South (JIATF-South). CBP, 
Coast Guard, and U.S. Navy aviation assets provide long-range 
surveillance, while Coast Guard National Security Cutters and other 
major Cutters--augmented by U.S. Navy ships with LEDETs--provide 
surface interdiction capability. Supported by intelligence and 
targeting information, these assets patrol the 6 million square mile 
transit zone looking for signs of illicit activity. DHS is the largest 
asset provider for these activities in the transit zone, accounting for 
more than 80 percent of all interdictions in the JIATF-S area of 
operations. Along the Mexican coast off the Baja Peninsula and in the 
Gulf of Mexico, the Coast Guard conducts joint and combined operations 
like Operations BAJA OLEADA in southern California and GULF WATCH in 
the Gulf of Mexico with the Department of Defense and Joint Task 
Force--North. Our assets, in cooperation with the Mexican Navy, 
continue to search for weapons and money on southbound vessels, and 
drugs and migrants on northbound vessels.
                            northern border
    The Coast Guard and our fellow DHS components have built strong 
relationships with Canadian law enforcement agencies to target illicit 
activity across our Northern border, including the maritime border, 
through efforts such as the creation of Integrated Border Enforcement 
Teams (IBET) comprised of Coast Guard, CBP, Immigrations and Customs 
Enforcement (ICE), Royal Canadian Mounted Police (RCMP), and Canada 
Border Services Agency. Guided by intelligence from the IBETs, the 
Integrated Cross-border Maritime Law Enforcement Operations, or 
ShipRider program, provide effective tools to respond to cross-border 
illicit activities. While ShipRider-like operations for specific 
special events have demonstrated success, implementation of the full 
program is pending ratification from the Canadian Parliament. Recently, 
a separate ad-hoc joint operation between the Coast Guard, CBP and the 
RCMP seized $2.6 million in Canadian currency that was tossed from a 
small, unlit vessel. Interagency cooperation is also achieved through 
Border Enforcement and Security Task Forces (BESTs), which are led by 
ICE primarily in land border areas around the ports of entry. The Coast 
Guard Investigative Service supports the efforts of BESTs by 
coordinating operations directed at narcotic and human smuggling 
conducted in major seaports and cross-border crime initiatives with the 
Organized Crime Drug Enforcement Task Force.
    In line with these efforts, President Obama and Prime Minister 
Harper recently signed a declaration entitled Beyond the Border: A 
Shared Vision for Perimeter Security and Economic Competitiveness to 
pursue a joint perimeter approach to security, work together at and 
away from the borders to enhance security, and accelerate the 
legitimate flow of people, goods, and services between the two 
countries. The Coast Guard Maritime Intelligence Fusion Center Atlantic 
has been partnering with our Canadian allies in Halifax, Nova Scotia to 
tactically enhance maritime situational awareness in the North 
Atlantic. This productive cooperation has centered on sharing 
information regarding mutual security concerns along the shared 
maritime border of the St. Laurence Seaway, Great Lakes, and other 
nautical approaches to North America.
                 bilateral agreements and partnerships
    To increase the operational reach of U.S. assets, and to enable 
partner nation assets to patrol and respond to threats in their own 
sovereign waters, the U.S. Government has entered into 41 bilateral 
maritime counter-drug law enforcement agreements. Additionally, the 
Coast Guard has developed non-binding operational procedures with 
Mexico, Ecuador, and Peru to facilitate communications between 
operation centers for the confirmation of registry requests and for 
permission to stop, board, and search vessels. Coast Guard law 
enforcement and border security capabilities are evident at both the 
National and the port level. When the Coast Guard is alerted to a 
threat to the United States, requiring a coordinated U.S. Government 
response, the Maritime Operational Threat Response (MOTR) plan is 
activated. The MOTR plan uses established protocols and an integrated 
network of National-level maritime command and operations centers for 
initiating real-time Federal interagency communication, coordination, 
and decision-making to ensure timely and decisive response to counter 
maritime threats.
                          senior guidance team
    The Coast Guard, CBP, and ICE Senior Guidance Team (SGT) is 
chartered at the component level to improve near- and long-term 
efficiency and effectiveness across DHS. The SGT is an executive 
coordination body that has led a number of interagency initiatives. 
Recently, the SGT has led the drafting of the DHS Maritime Operations 
Coordination Plan to ensure operational coordination, planning, 
information sharing, intelligence integration, and response activities 
and facilitated the promulgation of the DHS Small Vessel Security 
Implementation Plan.
                  maritime intelligence and targeting
    As the lead agency for maritime homeland security, the Coast Guard 
screens ships, crews, and passengers of all vessels required to submit 
a 96-hour Notice of Arrival to a U.S. port. In general, these 
requirements apply to U.S. and foreign commercial and recreational 
vessels over 300 gross tons. In 2010, the Coast Guard screened more 
than 257,000 ships and 71.2 million people. Screening of the crew and 
passengers is performed by the Intelligence Coordination Center's 
Coastwatch Division, which is co-located with CBP efforts at the 
National Targeting Center, while the two Maritime Intelligence Fusion 
Centers focus on screening the vessel itself. These Centers associate 
relevant intelligence and law enforcement analysis to specific vessels, 
assess vessel activity. Coast Guard's screening results are passed to 
the appropriate Coast Guard Sector Command Center, local intelligence 
staffs, CBP, and other partners to share information regarding the 
potential risk posed by a vessel. The relationship between the Coast 
Guard Maritime Intelligence Fusion Center Atlantic and the CBP Office 
of Air and Marine assets has improved communication between Coast Guard 
and CBP assets and enabled the passing of targeted information, which 
has been pivotal in our successful collaboration efforts.
                              at the port
    Coast Guard Captains of the Port are designated as the Federal 
Maritime Security Coordinator for their port, leading the Area Maritime 
Security (AMS) Committees and overseeing the development and regular 
review of the AMS Plans. AMS Committees have developed strong working 
relationships with other Federal, State, and local law enforcement 
agencies in an environment that fosters maritime stakeholder 
participation. The Joint Harbor Operations Center (JHOC) in San Diego, 
California represents another example of the evolution of joint 
operations in a port. Located at Coast Guard Sector San Diego, the JHOC 
is manned with CBP, Coast Guard, and local Marine Police watchstanders. 
The JHOC coordinated operations contributed directly to the 
interdiction of 792 undocumented immigrants and 27,000 lbs of marijuana 
and cocaine in fiscal year 2010. On a National scale, the establishment 
of Interagency Operations Centers (IOC) for port security is also well 
underway and IOCs have recently opened in San Francisco and New Orleans 
to further facilitate coordination and information sharing at the port. 
The Coast Guard, CBP, and other agencies are sharing workspace and 
coordinating operational efforts for improved efficiencies and 
effectiveness of maritime assets in ports around the country such as in 
Charleston, Puget Sound, San Diego, Boston, and Jacksonville.
                               conclusion
    These successful partnerships and strategies have been and continue 
to be essential to the interdiction of narcotics, suspected drug 
smugglers, illicit vessels, and undocumented migrants attempting to 
enter the United States by our maritime borders. Thank you for the 
opportunity to testify before you today. I will be happy to answer any 
questions you may have.

    Mrs. Miller. Thank you very much, Admiral. Appreciate that.
    Sheriff Donnellon.

STATEMENT OF SHERIFF TIM DONNELLON, ST. CLAIR COUNTY SHERIFF'S 
                        OFFICE, MICHIGAN

    Sheriff Donnellon. Good morning, Chairwoman Miller and 
distinguished Members of the committee. It is my great pleasure 
to be here this morning to discuss the great strides we have 
taken to secure our part of the U.S. and Canadian border.
    As you see on our map, St. Clair County sits on the 
southern end of Lake Huron, approximately 45 minutes northeast 
of the city of Detroit. The entire eastern region of our 
county, 110 miles, is international border. That makes us the 
largest bordering county out of the 83 counties in the State of 
Michigan. Additionally, we have two main border crossings, 
being the Twin Blue Water Bridge from Port Huron to Sarnia as 
well as Rail Tunnel, and ferrite traffic.
    On my appendix, it showed a number of divisions through the 
sheriff's office where we partner with our Federal partners 
here in law enforcement. Most specific are Marine Division, 
which is tasked with providing public safety in a maritime 
environment. We do this through a number of joint operations, 
such as Operation Channel Watch as well as the use of the 
Homeland Security Intel Network. Additionally, we have Customs 
and Border Patrol agents assigned on our vessels on a regular 
basis.
    Additionally, we have numerous events in St. Clair County 
that attract thousands upon thousands of boaters. We work in 
conjunction with our Federal counterparts to police these 
activities.
    Another component of cooperation is our Sheriff's Dive 
Team. It is the only full-service dive team in the St. Clair 
County community. We are tasked with handling dive operations 
on both the U.S. border as well as the Canadian border. St. 
Clair County is also a home to a multitude of critical 
infrastructures, and a great many of these components are 
underwater.
    Additionally, a partnership has been formed with our drug 
task force in St. Clair County, and that is our full-time 
narcotic section. In October 2010, a partnership was bonded 
where CBP now assigns an agent full-time to our narcotic 
sector, which has improved communications and cooperation 
tremendously with the two agents.
    In 2009, our unit was formed to start a highway 
interdiction team, and this is uniformed division officers with 
drug K-9. We work the ports of entry, the Blue Water Bridge, 
the Rail Tunnel, as well as our interstates. They work daily 
with CBP and ICE agents to work on sharing intel and 
information.
    Additionally, we have been fortunate to be funded with 
Operation Stonegarden in years 2008, 2009, 2010, and also in 
2011. I will touch that this grant has covered overtime wages, 
fuel maintenance, and equipment, and that this has allowed to 
us put more boots on the street and certainly increase our 
maritime presence on the waters of St. Clair County.
    My counterpart also touched in general on the Operational 
Integration Center. This sits just into the edge of Northern 
Macomb County, bordering St. Clair County. With 11 towers and 
35 miles of river being covered on camera, this will be ideal 
for the residents of St. Clair County to assist us, not only in 
the Federal law enforcement mission with the smuggling with 
human as well as narcotic, it will also help us with local 
criminal activity.
    I have touched on our partnerships with our Federal 
counterparts on our drug task force, our marine division, our 
dive team, our highway interdiction unit, but we also have an 
internal partnership with the Federal Government, and that is 
on our corrections end. Our facility houses an average of 155 
Federal inmates on a daily basis. A great many of those are ICE 
detainees. We are only one of four jails in the State of 
Michigan that is qualified to house ICE detainees. Within the 
last 6 months, we have increased and perfected that 
relationship, that now we have a full-time ICE agent assigned 
to our facility as a contact officer between the sheriff's 
office and the Federal Government.
    In conclusion, I would like to thank you, Congresswoman 
Miller and committee Members, for your service. I appreciate 
the opportunity to represent local law enforcement and the 
citizens of St. Clair County. I would be happy to answer any of 
your questions. Thank you.
    [The statement of Sheriff Donnellon follows:]
              Prepared Statement of Sheriff Tim Donnellon
                             July 12, 2011
                              introduction
    Good morning Chairwoman Miller and distinguished Members of the 
committee. My name is Tim Donnellon and I currently serve as Sheriff of 
St. Clair County, MI. It is my great pleasure to be before you today to 
discuss the great strides we have taken to secure our part of the U.S./
Canadian border. In St. Clair County we recognize the assistance we 
have received from the Federal Government, which has provided the 
necessary support to increase the security of our border, and look 
forward to continued collaboration in order to continue these efforts.
                   international geographic location
    St. Clair County sits at the southern end of Lake Huron, 
approximately 45 miles north of the city of Detroit. We are a county of 
nearly 837 square miles. Our eastern border is 110 miles long and is 
made up of Lake Huron, the St. Clair River and Lake Saint Clair, all of 
which is a continuous border with Canada thus making St. Clair County 
the largest international bordering county of any of the 83 counties in 
the State of Michigan.
    St. Clair County has two main border crossings and two secondary 
crossings. The main crossings are the Blue Water Twin Bridges and the 
Rail Tunnel from Port Huron, Michigan to Sarnia, Ontario. The Blue 
Water Bridges are the second-busiest commercial border crossings on the 
Northern border and the Rail Tunnel is the busiest railroad crossing 
between the United States and Canada. Secondary crossings are the ferry 
crossings located in Marine City and Algonac.
    As you can see, from the map of St. Clair County listed under 
attachment ``A'', what makes St. Clair County beautiful also makes it 
extremely challenging for law enforcement. In addition to the 110 miles 
of international waterways St. Clair County also has two interstate 
freeways running through the county to the border, which places a 
greater emphasis on the need for heightened border security. The 
appendix shows we have multiple divisions within the sheriff's office 
that partner with our Federal agencies to promote homeland security.
                            marine division
    Our Marine Division is tasked with providing public safety to the 
waterways within our jurisdictional boundaries. In addition to above 
listed major bodies of water there are many connecting tributaries 
which increase the Marine Division's responsibilities. The St. Clair 
River handles a very high volume of commercial shipping traffic. This 
region of Michigan is the busiest main thoroughfare for pleasure craft 
in the United States. Any pleasure craft or commercial freighter 
traversing between the lower and upper Great Lakes must pass through 
St. Clair County.
    The Marine Division is a part of ``Operation Channel Watch'', which 
is a collaboration of Federal, State, and local law enforcement 
agencies composed of marine, air, uniform, and covert intelligence 
units. Surveillance is conducted on the St. Clair River, Lake St. 
Clair, and Lake Huron. The goal of this operation is intelligence 
gathering, reporting procedures, communications, and overall strategy 
for intercepting vessels crossing the international border.
    There are numerous events that take place along our international 
waters that draw thousands of participants. These events create the 
potential for border incidents or terrorist activities. The Marine 
Division works in conjunction with Federal and State agencies as well 
as the Royal Canadian Mounted Police, Ontario Provincial Police, First 
Nation Walpole Island Police and Ministry of Natural Resource to 
increase the safety on our international waterways.
    In an another effort to make the most of our local resources, our 
Marine Division along with U.S. Customs and Border Protection (CBP) 
through the HSIN (Homeland Security Intel Network) also share a working 
calendar. This calendar ensures no duplication of patrol sectors. 
Additionally, we partner with CBP assigning their agents to our vessels 
as a force multiplier.
                               dive team
    Another large component of border security is the Sheriff's Dive 
Team. As the only team in the area, they have been requested to respond 
to incidents not only on our own shoreline but the Canadian shoreline 
as well. These responses have included assisting the following Canadian 
agencies: Sarnia Police, Sarnia Fire, Point Edward Fire, Point Edward 
Police, St Clair Township Fire (Ontario), Royal Canadian Mounted 
Police, and the Ontario Provincial Police. They have assisted with 
Water Rescues, Suicides, Body Recovery, Homicide Investigations, 
Automobile Recovery, and Evidence Recovery.
    St. Clair County is home to a multitude of critical infrastructure 
components, most notably the potable water intakes in the area. The 
Detroit Water Intake is one of the largest in the country. It serves 
millions of people and is located in Lake Huron 10 miles north of the 
Blue Water Bridges in approximately 200 of water. There are ten more 
potable water intakes in St Clair County. A chemical weapon attack on 
any of these intakes could sicken or kill thousands of people.
    There are four power plants in St. Clair County all of which depend 
on cooling water to operate. Two railroad tunnels and numerous oil and 
high pressure gas lines cross under the St. Clair River. An underwater 
terrorist attack on any of these locations could cause the disruption 
of the vital services and potentially the deaths of citizens in both 
the United States and Canada.
    A threat to power plants, water plants, and intakes are obvious 
above water. To lesson the risk we have installed security cameras, 
fences, set crash barriers, police patrols, and continued pre-plan for 
possible terrorist attacks. But underwater it is out of sight and out 
of mind. Perhaps our greatest risk is in an underwater attack. There 
are no fences, guards, or gates. Yet a diver could enter the heart of a 
power plant or water plant through an intake without ever encountering 
a guard and destroy its ability to operate. In addition to basic water 
rescue, if any threat is received to any water plant, power plant, 
tunnel, or pipeline, the Dive Team is prepared to intervene.
                            drug task force
    Another component is our Drug Task Force Unit. It has been in 
operation for over 20 years. Information has been received every year 
pertaining to cross-border drug and smuggling operations. We came to 
the conclusion that information sharing with Federal law enforcement 
agencies was not occurring as efficiently as possible. In October of 
2010 a partnership was formed with the CBP where an agent was assigned 
to the Drug Task Force. This agent focuses on drug cases with emphasis 
on border nexus and those cases involving potential illegal aliens. 
This in turn has improved information sharing between the local and 
Federal law enforcement agencies providing a timely and fluid 
intelligence flow between them. This agent's vast knowledge of border 
crimes and illegal aliens has heightened local law enforcements 
awareness of border crimes. This partnership has enhanced the ability 
to share not only information but equipment and assets.
                           interdiction unit
    In 2009, The sheriff's office realized the need for a unit 
dedicated to drug interdiction. As a result of multiple narcotic 
seizers, information was passed onto CBP and ICE agents regarding 
suspected international narcotic smuggling, illegal hiring practices, 
illegal immigrant smuggling, and international transportation of stolen 
vehicles. Our interdiction unit works constantly with CBP in 
operational activities and information sharing. We assist at the 
international bridge and tunnel crossings with K-9, rail yard and 
inbound/outbound vehicle searches. Both agencies have benefited from 
this collaboration resulting in improved border security. In 2010, CBP 
made more than 7,400 arrests along the Northern border. Nearly 1,700 
arrests took place along the 863 miles that make up the Detroit Sector, 
which is the largest of the Northern border's eight sectors.
                         operation stonegarden
    Since its inception, the intent of Operation StoneGarden (OPSG) has 
been to enhance law enforcement preparedness and operational readiness 
along the land borders of the United States. OPSG provides funding to 
designated localities to enhance cooperation and coordination between 
law enforcement agencies in a joint mission to secure the border. Law 
enforcement agencies along the border in St. Clair County were awarded 
the Operational StoneGarden Grant. This funding provides for overtime 
wages, fuel/maintenance, and equipment. This has allowed us to put more 
boots on the street and significantly increase maritime operation along 
our border. This funding has enhanced security in border areas not 
normally afforded patrols due to shrinking budgets.
                     operational integration center
    In March of 2011 CBP opened its new Operational Integration Center 
(OIC) on Selfridge Air National Guard Base. The OIC provides a 
centralized location for CBP, along with Federal, State, local, and 
international partners, to gather, analyze, and disseminate 
information. The OIC will enhance information sharing with all partners 
in the Great Lakes Region. Real-time video feeds into the OIC's 
situational awareness room from 11 towers equipped with high-tech 
cameras and radars built along 35 miles of the St. Clair River. Local 
law enforcement agencies in collaboration with Federal agencies now 
have the ability to utilize this technology in a variety of 
applications, such as: Drug and human smuggling, boating accident 
reconstruction, and local criminal activity.
                          corrections division
    Not only have we established solid working relationships with 
Government agencies on the law enforcement component of our office, but 
we have a solid internal relationship also. St. Clair County Jail is 
one of only four jails in the State of Michigan qualified to house ICE 
detainees. We currently house an average of 155 Federal prisoners 
including ICE detainees, U.S. Marshal and Federal Bureau of Prisons 
inmates in our county jail. This internal relationship was taken to new 
levels this past year as St. Clair County holds video court proceedings 
for ICE detainees. ICE has also assigned a full-time agent to our 
facility in a liaison capacity. Additionally, our office provides 
detainee transportation services. This includes to and from 
correctional facilities, courthouses, and airports for the entire 
eastern half of Michigan.
                               conclusion
    Chairwoman Miller and committee Members I would like to thank you 
for your service and the opportunity to testify before you today. It 
has been a great honor to represent the citizens of St. Clair County 
and local law enforcement at this hearing. I hope this has aided you in 
regards to the on-going partnership between local and Federal law 
enforcement agencies on the Northern border and our challenging 
maritime environment. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mrs. Miller. Thank you very much, Sheriff.
    Sheriff Garcia, for your testimony, sir.

  STATEMENT OF SHERIFF ADRIAN GARCIA, HARRIS COUNTY SHERIFF'S 
                         OFFICE, TEXAS

    Sheriff Garcia. Thank you.
    Good morning, Madam Chairwoman, Congressman Cuellar, and 
distinguished Members of this important subcommittee. Thank you 
for allowing me the opportunity to share a bit about what we do 
in Harris County, Texas.
    Harris County is otherwise known as the city of Houston, 
which includes 33 other municipalities besides the city of 
Houston, with a population of 4.2 million people and growing 
every day. As sheriff, I oversee the Nation's third-largest 
sheriff's office as well as policing of the unincorporated 
areas of the county where about 1.5 million people live, which 
is equal to the city of Philadelphia.
    But the Harris County Sheriff's Office is also the lead law 
enforcement agency of the Houston Ship Channel Security 
District, a corridor that is home to 40 percent of the Nation's 
chemical manufacturing capacity, 14 percent of its oil refining 
capacity, including a large amount of jet fuel. The waterway 
obviously is the main two-way transit way for all of this 
crucial activity. It is said that a shutdown of the ship 
channel could cost the local economy $300 million a day, not to 
mention the obvious impact that it could have on National 
economy. This is also where you will find the Port of Houston, 
which has led the Nation in foreign tonnage for 14 years.
    I have two main messages today. First, we do a great job 
coordinating with many sister law enforcement agencies, 
industry groups, boards, city, county, State, and Federal 
Government. We are a model of communication and maximization of 
resources among overlapping bureaucracies. Perhaps this is by 
necessity because we know how important the port is to the rest 
of the world. But it is important to point out that 
intelligence from Osama bin Laden's compound indicated that al-
Qaeda has considered bombing the kind of oil tankers that we 
protect at the port every day.
    The second message is: We need additional resources to help 
us at the local level so we can stay ahead of domestic and 
international terrorism. Our biggest challenge in securing the 
ship channel is a shortage of funding from all government 
levels.
    However, even with the need of additional resources, I am 
proud of my deputies for doing an incredible job in keeping 
this vital infrastructure safe. My deputies patrol the waterway 
on sheriff's office patrol boats that can respond to any 
disturbance or suspicious activity spotted by the human or 
electronic eyes or by other forms of technology. We are well-
coordinated with the U.S. Coast Guard, the Merchant Marine, and 
other Government agencies and private stakeholders.
    But the bottom line is that we have yet to be able to 
deploy our personnel to the extent that this type of 
responsibility demands. The reason for that is that, despite 
the $30 million in homeland security grants that we received 
from the Federal Government for new hardware, these grants do 
not allow for the investment in the most critical of resources: 
Full-time deputies and the necessary training they need to have 
to be effective at policing a unique environment like the 
Houston Ship Channel.
    One of the financial problems is local. The Ship Channel 
Security District collects assessment fees from its members and 
pays the money to the county to reimburse it for security 
services and enhancements. But the economy has harmed property 
values, and they are the foundation of the tax base the county 
uses to fund all of its operations, including my agency.
    I have been under a forced hiring freeze since October 
2009. I have lost several hundred employees as a result, with 
120 just from our patrol bureau. All of my crime-fighting 
programs are strained, and I have to pay overtime just to run 
our jail operations at the required State standards.
    Yet we have not been awarded any COPS grants from the 
Justice Department. One reason is because agencies that have 
had to lay off employees get first priority. I need Congress 
and the administration to recognize that a forced hiring 
freeze, not even replacing attrition, is, in fact, a layoff. It 
prevents us from deploying more crime-fighters to the Houston 
Ship Channel.
    For now, I have a detail of deputies assigned to water 
patrol. They have done everything, from escorting liquid 
natural gas vessels to redirecting recreational watercraft away 
from restricted areas. I want to add bodies but cannot do so 
without additional funding. We need any kind of assistance from 
Washington, whether it comes from COPS or elsewhere.
    The Houston Ship Channel Security District is a true model 
for how multi-jurisdictional agencies should address a common 
mission. The Coast Guard controls the entrants to the mouth of 
the ship channel. CBP regulates cargo. We watch the ship 
channel through a combination of surveillance and detection 
technology; we refer to it as our ``ring of steel.'' We also 
fall under the Area Maritime Security Council, which takes a 
regional approach to maritime and border security in our area.
    We are not deterred by what it takes to protect a National 
asset like the Houston Ship Channel, but I am taken aback by 
how difficult it is to get the necessary support through 
programs like COPS to help us deter and detect interested 
terrorists. We want to meet all of the highest expectations of 
our community, our Nation, and the world, but we need your 
help.
    Thank you for allowing me this time, and I invite you to 
visit the Houston Ship Channel to see our operations in real-
time. Thank you, and I would be interested in answering your 
questions.
    [The statement of Sheriff Garcia follows:]
                  Prepared Statement of Adrian Garcia
                             July 12, 2011
    Thank you distinguished Members of the Border and Maritime Security 
Subcommittee of the House Homeland Security Committee, and thank you to 
the gentleman from South Texas, Congressman Cuellar, for inviting me to 
provide testimony about Harris County, Texas. The county is otherwise 
known as the Houston area, which includes 33 other municipalities 
besides the city of Houston, with a population of 4.2 million diverse 
constituents whom I serve. It's a major international crossroads for 
commerce, immigration, and recreation. It's growing everyday.
    As sheriff, I oversee the Nation's third-largest jail as well as 
the policing of the unincorporated areas of the county, where about 1.5 
million people live. That population number is equal to the city of 
Philadelphia or the city of Phoenix.
    But the Harris County Sheriff's Office is also the lead law 
enforcement agency of the Houston Ship Channel Security District, a 
corridor that is home to 40 percent of the Nation's chemical 
manufacturing capacity and 14 percent of its oil refining capacity, 
including a large amount of jet fuel. The waterway obviously is the 
main, two-way transit-way for all of this crucial activity. It's said 
that a shutdown of the Ship Channel costs the local economy $300 
million a day--not to mention the obvious impact that such a disruption 
could have on the National economy. This is also where you'll find the 
Port of Houston, which has led the Nation in foreign tonnage for 14 
years.
    I have two main messages about the job we do on the Ship Channel.
    ONE: We have done a miraculous job coordinating with a stunning 
number of sister law enforcement agencies, industry groups, boards, 
city government, county government, State government and the Federal 
Government. If there is such a thing as model communication and 
maximization of resources among overlapping bureaucracies, you are most 
likely to find it along the Ship Channel in Harris County, Texas. 
Perhaps this is by necessity, because we know how important our port is 
to the rest of the world. We were also not surprised when the 
intelligence from Osama bin Laden's compound indicated that al-Qaeda 
has considered bombing the kind of oil tankers that are every day 
sights at the Ship Channel.
    TWO: We need additional resources to help us at the local level so 
we can stay ahead of domestic and international terrorism. Our biggest 
challenge in securing the Ship Channel is the woeful shortage of these 
resources--namely, funding from a variety of government levels. 
However, even with the need of additional resources, my deputies are 
doing an incredible job in keeping this vital infrastructure safe--and 
they are doing so on a 24/7 basis. My deputies patrol the waterway on 
sheriff's office patrol boats that can respond to any disturbance or 
suspicious activities spotted by the human or electronic eyes or by 
other forms of technology. We are well coordinated with the U.S. Coast 
Guard, the Merchant Marine, other Government agencies and private 
stakeholders. But the bottom line is that we have yet to be able to 
deploy our personnel to the extent that this type of responsibility 
demands. And the reason is that, despite the $30 million in Homeland 
Security grants we have received from the Federal Government for new 
hardware, these grants do not allow for investment into the most 
critical of resources; and that is the full-time deputies and the 
necessary training they need to be effective in policing a unique 
environment like the Houston Ship Channel.
    One of our financial problems is local. The Ship Channel Security 
District collects assessment fees from its 100 or so private industry 
members and pays the money to county government in return for security 
services and enhancements. But the National economy has harmed property 
values in the Houston area, and these values are the foundation of the 
tax base the county uses to fund all of its operations, including my 
agency. The county cut its overall spending by forcing a hiring freeze. 
I have lost several hundred employees as a result since October 2009, 
with more than 120 just from our Patrol Bureau. All of my crime-
fighting programs are strained; I have had to pay an exorbitant amount 
of overtime just to staff my jail at required state standards.
    And yet, we have not been awarded any COPS grants from the Justice 
Department, apparently because law enforcement agencies that have had 
to lay off employees got first priority. I hope Congress and the 
administration will recognize that a forced hiring freeze--not even 
replacing attrition--is in fact a layoff--especially when it prevents 
us from deploying more crime-fighters to the National security asset 
known as the Houston Ship Channel. For now I have a small detail of 
deputies assigned to water patrol, and they have done everything from 
escorting Liquid Natural Gas vessels to directing fishing boats and 
recreational watercraft away from restricted areas. I would love to be 
able to add bodies to this first line of defense but cannot do so 
without funding from local and/or National sources. Fortunately, the 
on-the-water team is backed by patrol officers who handle regular calls 
for service on that east side of our county. For now, they are our 
stop-gap force. We welcome any kind of assistance from Washington, 
whether it comes from COPS grants or elsewhere.
    To further complicate our work, the Houston Ship Channel is not 
entirely in Houston. In fact Houston is just one of eight cities with 
acreage in the Ship Channel Security District. Other partners in the 
security district include the Texas Department of Transportation, the 
Metropolitan Transit Authority, the county's Office of Emergency 
Management and its other agencies, and the University of Houston. The 
security district has an 11-member board, eight of whose members come 
from private industry. Each of those members comes from one of four 
Ship Channel zones. One board member is appointed by the Harris County 
Mayors and Councils Association, which has 36 member cities, but their 
appointee has to come from one of the eight cities along the Channel. 
If that's not enough to boggle your mind, consider that the Security 
District was only able to launch in 2009 because of required enabling 
laws that passed the State Legislature 2 years earlier.
    The Houston Ship Channel Security District is a true model for how 
multi-jurisdictional agencies should address a common mission. The 
Coast Guard controls the entrance to the mouth of the Ship Channel. 
Customs and Border Patrol regulates cargo. As has been disclosed in 
public, we watch the Ship Channel through a combination of wireless and 
fiber-optic communications, surveillance and detection cameras, and 
many other forms of technology applications and systems--that a 
colleague once referred to as our ``ring of steel''. We also fall under 
the Area Maritime Security Council, which takes a regional approach to 
maritime and border security in Houston and nearby Galveston, Freeport 
and Texas City, Texas.
    We are not deterred by complexity of what it takes to protect such 
a National asset as the Houston Ship Channel, but I am taken back by 
how difficult it is to get the necessary support through such programs 
like COPS to make sure that we can continue to deter or detect 
interested terrorists. My staff has been creative and diligent about 
achieving the levels of cooperation we have with all stakeholders. We 
all want to meet the highest expectations of our community, of the 
Nation, and of the world, but we need your help to stay on top of our 
mission. Thank you.

    Mrs. Miller. Thank you very much, Sheriff.
    We certainly appreciate the comments and the testimony of 
all of our witnesses today. I certainly am appreciative of the 
challenges, financial challenges, that are facing all of our 
law enforcement.
    I would just mention this--and, believe me, I do it in a 
very highly respectful way. Texas has probably the best economy 
in the Nation. Your sheriff neighbor right next to you there is 
operating in a State that has probably the worst economy in the 
entire Nation. Take a walk around our neighborhood, and one of 
the cities in St. Clair County, Port Huron, has unemployment 
right now at about 35 percent. So property values, et cetera--
you can only imagine the challenges around.
    Everybody is facing financial challenges, the Federal 
Government as well. So that really is the purpose of this 
hearing, because, honestly, there is not a lot of money at the 
Federal level either when we have a $14 trillion deficit and we 
are talking about raising our debt ceiling here. So there is 
going to be less, not more, coming from Washington. It is just 
a reality, the hard reality that we are all dealing with.
    So that is really what we are trying to get at here, how we 
can continue to--I always say the largest room is the room for 
improvement--how can we continue to improve our cooperation 
with the limited resources that we all have at the Federal 
level, at the State level, at the local level as well. I think 
the two areas that we have pointed out, we are showcasing 
today, from the north to the south, are excellent areas to 
showcase wonderful cooperation between the local county 
sheriffs and the Customs and Border Protection and the Coast 
Guard, et cetera.
    I would just, I guess, ask a question of, I think, all of 
our witnesses, because I thought it was interesting that both 
the sheriffs testified about the petrochemical kind of 
footprint that they have in their particular areas. Sheriff 
Garcia mentioned about the Houston shipping channel there, with 
all of the transit that is happening and the oil refineries, et 
cetera. In our neck of the woods, in St. Clair County, the 
sheriff can tell you very well, we are host to, we think, the 
largest concentration of petrochemical plants in the 
hemisphere, perhaps next to New Jersey, on the Canadian side, 
that you can't quite hit with a golf ball but it is not too far 
away actually, which has a different dimension, another 
dimension, to an asymmetrical kind of war-gaming, really, that 
we are constantly doing with all of the challenges that we have 
there.
    I would just ask, perhaps starting with the general and the 
admiral, about overlapping maritime jurisdictions. Whether it 
is the contiguous zone or even in an area like St. Clair County 
or even in an area like the Houston shipping channel, there are 
the kinds of things that the Coast Guard boats--the Coast Guard 
might be able to do legally that Customs and Border Protection 
could do or can't do legally. How do the local sheriffs enter 
into an equation like that, just as far as legal jurisdiction 
and who is responding first?
    I ask that question because, in the back of this room, I am 
looking--you can't all see unless you turn your heads, but we 
have a very large print of the burning towers. That was 
something that this committee--it was why this committee was 
formed. Subsequently, of course, we all now see who responded: 
It was the local first responders that were responding to this 
horrific, horrific attack on our Nation.
    As so, as we think about border security, particularly in 
the maritime realm, again, how can we ensure that the local 
first responders are working as cooperatively as they can 
within their legal frameworks? What kinds of things Congress 
might be able to do, even if we need to do it legislatively, to 
help you all do the jobs that you do so very, very well?
    We will start with the general.
    General Kostelnik. Well, I think a lot of that cooperation 
is driven both by the resources you bring to the fight and also 
the entitlements that you have.
    I think between us and the Coast Guard there is very close 
cooperation around all these major cities, Houston and many 
others, but I would highlight Miami as a good example, District 
7, where you have, you know, farther out in the deeper water 
the larger Coast Guard craft that take care of that 
responsibility; as you get in closer to the shoreline, you have 
CBP assets, smaller, more maneuverable, looking for a certain 
type of thing; and then, as you get into the ports, have you 
some of the CBP and Coast Guard vessels, you know, supporting 
other kinds of entities for the coastal missions. You are more 
likely to come into the State and local as you get close into 
those ports. So in Port of Miami, that is why a lot of these 
new maritime operating capabilities and coordination activities 
are so important, because it chooses to integrate all those 
things.
    In the area of Houston, for example, where you have a lot 
of infrastructure in this oil and natural gas pipeline, 
clearly, that is an opportunity for somebody to do great harm. 
Obviously, you get instant impact at the pump when something in 
the media spins up.
    I think another one of those areas for Air and Marine, why 
we put a new branch, a marine branch, under the direction of 
this Congress, into the Port of Galveston, which supports the 
Port of Houston. We have had an air branch in Houston 
supporting not only our own mission but State and local upon 
request. Then with the now Guardian, you know, maintained out 
of NAS Corpus Christi and with the COAs that we have, we can 
fly throughout the ports. So we have now the capability in a 
crisis to support unique overhead, support from an unmanned 
asset, feeding live imagery to any of the vessels on the 
ground, whether it is a local emergency center, a State or a 
local, or through the cutter systems or the Coast Guard proper.
    So I think you will find that this is one of those areas 
that really is the initiative of both the commandant and 
Commissioner Bersin, to tie all those things together given the 
assets we have. I think you will find that there is a natural 
relationship, you know, based on the type of equipment that we 
operate that provides a seamless connectivity from deepwater 
into the port specific.
    Mrs. Miller. Thank you.
    Admiral, before you answer, I will hope that you touch a 
little bit on--I know the Coast Guard is looking at doing some 
sort of voluntary cross-training on ships and various things 
for the locals, as well. I think my sheriff is very interested 
in how that might work, as well.
    Admiral Zukunft. Certainly.
    Let me just follow up. When I was commanding our 11th Coast 
Guard District, this was an area of great concern to me, with 
the ports of LA/Long Beach, which are actually two distinct 
ports. So, first, I wanted to make sure that information was 
getting down to the local level. So I actually went down and 
participated in one of these law enforcement boardings, but it 
was a vessel carrying over 8,000 TEUs that had been in one the 
ports where we had done an assessment that said, this is a 
high-risk port.
    So, as the vessel was making its way out to sea, it 
provides 96-hour advanced notice of arrival. We worked with the 
National Targeting Center, look at what cargo was on board, who 
the shippers are, and then we look at the crew makeup. We can 
also provide biometrics if any of those crew members come up 
suspicious, and then escort that vessel as it comes into port.
    So all of that is taking place out in the high seas, where 
the Coast Guard continues to have jurisdiction. As we come 
inside of 12 miles, we have shared jurisdictions with a number 
of municipalities. In this particular case, we put together a 
team of LA Harbor Police, CBP, and Coast Guard, all armed to do 
this boarding.
    You may ask, well, why so many? Why can't one agency do it? 
We want to turn these container ships around in about 6 hours 
so we don't gridlock our global supply chain. So we went on 
there with 12 boarding team members, all interagency, and then 
we were able to clear the vessel within about 45 minutes' time. 
So that is a security protocol that we would also have in 
Houston-Galveston but also in our 35 sectors where we have 
standing air/maritime security committees.
    But it really begins with sharing information, knowing what 
the threats are, and then working across our law enforcement 
enterprise so we don't gridlock our global supply chain. 
Because our port infrastructure has not grown, yet the TEUs 
coming into this Nation continue to grow at a significant 
volume.
    Mrs. Miller. I am running a little bit over my time here, 
so I am going to----
    Admiral Zukunft. All right.
    Then, as it comes to training, we have stood up a Shiprider 
training program at our law enforcement training school in 
Yorktown, Virginia. We have trained both local and 
international students there. We have run through, even on the 
Canadian side, nearly 60 Canadian law enforcements, as well, 
that basically come out of there deputized to serve in the U.S. 
waters, as we do in theirs.
    Mrs. Miller. Sheriff Donnellon.
    Sheriff Donnellon. In regards to the Coast Guard authority 
bill, which you touched on earlier prior to this, we are very 
much in need of that type of assistance.
    When you look at places like St. Clair County, we have a 
large water presence, and we work in partnership with the Coast 
Guard, who is the lead on the majority of these operations. But 
St. Clair County is only 1 of 83 sheriff's offices, and most, 
if not all, of them have some sort of a marine division. With 
that type of bill, it will level the playing field and open up 
a universal training for all of the local law enforcement, 
which is very much needed.
    In regards to the inter-cooperation and partnerships, that 
goes on on a regular basis. Much like the Shiprider program 
with the Coast Guard, we have that with the CBP, where the 
agents are assigned to our sheriff's office vessels, and we 
also assign ours to their vessels. This gives you, a lot of 
times, the best of both worlds. In the St. Clair County area, 
on a marine boat you may run into a general State of Michigan 
law-type statute of a drunken boater or an accident on the 
water where our people can handle it, and at the same time or 
within the same shift you will run into an international-type 
incident. When you have the CBP agent assigned, you cover it 
all at once. So it is extremely helpful to build this 
collaboration.
    Mrs. Miller. Thank you very much.
    Sheriff Garcia.
    Sheriff Garcia. Without a doubt, it is imperative that we 
collaborate and coordinate and share resources as often as 
possible.
    But one of the things that I wanted to point out that makes 
things even more challenging in our jurisdiction is the fact 
that we have annual hurricane threats. We are a flat community. 
So with our neighboring communities like Louisiana, our 
partners, the Coast Guard, do get pulled and stretched very 
thin in trying to balance the cone of uncertainty when we have 
natural disasters coming upon our area. So it is always 
incumbent to make sure that we have the necessary support to 
have that mutual aid ability to respond to those issues within 
our jurisdiction.
    But all that to say that the training that has been 
provided to us, the sharing of information that we coordinate, 
arrest and security reviews of people that work and go about 
the Port of Houston--last year we did several arrests of people 
who were in the port area who had outstanding warrants--so, 
maintaining that type of integrity of that critical 
infrastructure is critical and, obviously, very important. 
Can't do it without more people, though.
    Mrs. Miller. Thank you very much, very much.
    The Ranking Member.
    Mr. Cuellar. To the two sheriffs, instead of myself asking 
the questions, I would like to give both of you an opportunity 
to ask our two good friends here from the Air and Marine and, 
of course, the Coast Guard questions, because I think you all 
just met for the first time, is that correct?
    Sheriff Donnellon. That is correct.
    Mr. Cuellar. Just following up what the Chairwoman started 
on, going to a little bit more details, what would you like to 
ask the Coast Guard to help you with or the Air and Marine now 
that you have those two leaders here, a little bit more, into 
the cross-training, equipment, maybe some used equipment that 
they might not need anymore, whatever the surplus rules are on 
that?
    But I would give you an opportunity now to ask the 
questions now. What would you want to ask, Sheriff Garcia? You 
will start off, and then Sheriff Donnellon. Think about this, 
because you have a pretty unique idea to give the two leaders 
here.
    Sheriff Garcia. Well, first of all, I am proud of the 
partnership and the collaboration that we do have with our 
respective partners in the Harris County area. There is not 
much I want to ask of them, because I do see that they are 
challenged with their resources. But I guess I want to continue 
to enhance the opportunity to receive all the necessary 
training that they can offer, any resources, used boats, things 
of that nature that they may not have any need for.
    Regretfully, I have to go back to the issue of personnel. I 
can take on all the boats that they don't need, but I don't 
have people to put in them. I can get more training 
opportunities, but if I only have the same folks that I have, 
then it becomes difficult to constantly retrain the folks that 
I already have.
    So it is imperative that we be candid with this body in 
that I see personnel as being one of our critical needs to meet 
our ability to be good partners with the U.S. Coast Guard and 
the others. But if there is anything they have, if they don't 
need any part of their budget, I will take that.
    Mr. Cuellar. For example, besides going into personnel, 
that is a different issue, but on the issue, for example, UAV 
Guardian, could that be useful to you? Because, for example, 
your area is very unique in the sense that, and I am sure that 
it is the same to many parts of the country also, but you have 
multiple private landowners along the corridor, private docks 
and all of that. Is there anything in particular, for example, 
that UAVs could be useful to you? It is going to apply to the 
other sheriff also.
    Sheriff Garcia. Congressman, that is an excellent point. We 
do have a fixed-wing operation that we utilize to provide some 
aerial surveillance of the Houston ship channel, and I 
understand there are some other forms of drones that are 
available, UAV aircraft. We would definitely like to look at 
the ability of incorporating those into our resources. If those 
types of issues and opportunities do meet the standards of our 
partners, I would definitely like to look at it.
    Several agencies in our area are exploring the use of 
unmanned small helicopters that have incredible capabilities. 
We are looking to test those as well.
    Mr. Cuellar. Thank you. Sheriff Donnellon.
    Sheriff Donnellon. Recently we were fortunate to start the 
partnership with CBP and we have that agent assigned to our 
drug task force, our full-time narcotics sector, and that has 
been a tremendous asset for the St. Clair County Sheriff's 
Office. We have a number of other small operating teams, such 
as our major crimes unit, which is a combination of Port Huron 
Police and St. Clair County Sheriff's Office, as well as our 
highway interdiction unit.
    Touching on staff, of course, everyone would like staff. I 
would as well in my organization, but possibly the ability to 
assign some of the Federal counterparts to our task force. That 
is a true force multiplier. That has worked tremendously having 
the CBP agent assigned to our drug unit. If we had additional 
border agents assigned to some of our smaller units, such as 
our highway interdiction with their dogs working in conjunction 
with our dogs on the highways and the port of entry, that would 
be a perfect marriage.
    Additionally with the Coast Guard, additional training. 
They are the lead in our area, and we work so close with the 
Coast Guard. Any training, particularly that that can be funded 
that would cover some of our overtime and back pay costs for 
the personnel to train, because it is as tough to find the 
training as to find the funds to send the guys to training 
because you have to replace them in the patrol sector. So the 
training as well as the assistance of agents assigned to 
sheriff units.
    Mr. Cuellar. My time is up already, but I would ask both 
the Coast Guard and the Air and Marine to think of a checklist. 
Because I know you are doing it already, but if there is a 
checklist that you can provide the sheriffs, and I know, 
Sheriff Garcia, I think you got a Texas Association meeting 
coming up in Texas and maybe General Kostelnik and also for the 
Coast Guard, if you all would like to send them kind of like a 
checklist of what is available on that.
    A lot of this is just things that we can build on, because 
I know that a lot of us have been talking about coordination, 
and I know you all just signed a memorandum of coordination 
between the three agencies in Homeland Security. Now, that 
doesn't even talk about coordination with the Department of 
Justice, where you include ATF, FBI, DEA and other folks. It is 
just a coordination with this.
    I don't know what you all were doing before this memorandum 
was signed, but I am glad that you all are doing this now. But 
I would ask you to think about the same type of process and see 
how you can help our local sheriffs. I would ask both of you 
all to follow up with the two sheriffs after the meeting 
instead of just saying goodbye and never see each other again. 
I would ask you to do that.
    My time is up. Thank you very much, Madam Chairwoman, and 
thank you to the witnesses, thank you very for being here, all 
four of you. Thanks.
    Mrs. Miller. I thank the gentleman.
    The Chairwoman now recognizes the gentleman from 
Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Madam Chairwoman. I 
appreciate this hearing. I will talk to the sheriffs, because 
they are individuals who are on the front lines.
    Both of you have talked about collaboration, and I think we 
all agree that collaboration between agencies is absolutely 
essential. But that goes only to a certain point. At this 
point, the House has voted to cut by over 50 percent grants to 
State and locals. If those cuts go through, what changes, given 
your receipt of Federal monies, would you have to do and what 
would those changes do for the security of the waterways in the 
counties you presently protect?
    Sheriff Donnellon, I will take you and then Sheriff Garcia.
    Sheriff Donnellon. Well, Michigan is under an extreme 
economic crisis and in St. Clair County, our county seat, Port 
Huron, has upwards of 30 percent unemployment. It is not 
uncommon to pick up the paper and see well-established law 
enforcement agencies, firefighters, and schoolteachers laid off 
across our region, which was not commonplace not too long ago. 
So we are aware of the difficult situation we are in.
    Our funding has been reduced over the last 3 years and we 
have made great strides to do more with less. A lot of these 
relationships in building these partnerships have really aided 
Saint Clair County, particularly CBP. Prior to 9/11, the 
Marysville Station had less than 10 agents. Now there is in 
excess of pushing 80. That is a huge force multiplier that can 
help assist us when the budgets are cut. We do recognize that 
with these tough economic times come tough decisions, and no 
one is held harmless and we do recognize that.
    Sheriff Garcia. Congressman, thank you for the question. I 
will tell you that I have an incredible challenge because the 
Port of Houston, the Houston ship channel, is a generator in 
our local economy. It is one of the factors that generates 
about one-third of the National economy. So I don't have many 
choices in not providing the personnel I need to police that 
area. In fact, it sometimes could be at the detriment to the 
rest of our responsibilities, pulling folks off of their 
routine duties to support our port operations, our ship channel 
security district operations. So it becomes a true and very 
difficult process of robbing Peter to pay Paul and then robbing 
Paul to pay Peter. So it is a very difficult process.
    That is why I continuously look for the opportunity and 
hope that, No. 1, that Congress does not cut the COPS grants or 
any of the other programs that have supported local law 
enforcement for so many years, because, you know, criminal 
street gangs is an issue that continues to stay in the 
forefront in my mind, so I do worry about folks that are 
interested in causing harm utilizing those kinds of resources 
in our own backyard to bring danger and disruption to our 
community.
    The best way to deter that, above the collaboration that we 
are doing, I really have no criticism of our partners, because 
we do have a very, very incredible working relationship, active 
information sharing, sharing of resources, sharing of space and 
things of that nature, where we are embedded with each other. 
But at the end of the day, it does come down to the ability to 
have someone in a patrol car, in a patrol boat, to be able to 
respond to respective threats that are in our waterway.
    Mr. Thompson. Thank you. I would take from both your 
comments that Federal resources are absolutely essential if in 
fact your counties are to continue to receive the same level of 
protection that they have, and to the extent that those 
resources are there, you can indeed provide the protection. Am 
I saying what you said correctly?
    Sheriff Garcia. That is true.
    Sheriff Donnellon. Well, that is true. We have had a number 
of cuts, and this is nothing new in St. Clair County. When I 
took office, I inherited about a 3.8 percent cut to my budget, 
last year was 6, and I anticipate upwards of 7 percent this 
year. So, you know, we rely so much on our Federal counterparts 
and we have that great relationship. So the cuts are something 
that, as brutal as they may seem, it is very commonplace in the 
State of Michigan.
    Mr. Thompson. Thank you.
    Mrs. Miller. The Chairwoman recognizes the gentleman from 
Texas, Mr. McCaul.
    Mr. McCaul. Thank you, Madam Chairwoman, and thank you to 
the witnesses.
    Sheriff Garcia, great to see you again. I would like to 
claim you as my sheriff as well. I represent a large part of 
Harris County, and I commend you for the great work that you 
do. The Houston Port Authority ship channel I view, as you 
pointed out with the bin Laden compound, it is probably one of 
the top targets. It provides energy for the entire Nation. So 
it is critical, whether it is UASIs or COPS, that I think you 
get those resources. We talked about that. We also discussed 
the drug cartel threat in the Harris County region.
    There is one model that I want you to expand upon in your 
testimony. You talk about the Houston Ship Channel Security 
District, and it is sort of a co-op of regional companies that 
band together authorized under State law to provide security. I 
think that is a sort of interesting model that I think we could 
learn from on this committee. Can you sort of describe how that 
works?
    Sheriff Garcia. Surely. There are approximately 100 private 
sector companies that have agreed with the enabling State 
legislation that was provided to assess themselves, tax 
themselves, even a little bit more so to provide additional 
resources to the county so that we can provide the work that we 
are doing. I think the fact that those particular private 
companies have come together in recognition of the need that 
there is and the fact that they can't expect the local 
governments to do it all, they have become an incredible 
partner in making sure that certain priorities do become 
realities.
    They also have a governing board that allows for good work 
to occur in that regard. I have here a little bit of how that 
particular process works, and it is--here it is. The Ship 
Channel Security District has eight cities that it has to also 
coordinate with, not including the Texas Department of 
Transportation, the Metropolitan Transportation Authority, the 
county's Office of Emergency Management and other agencies as 
well as the University of Houston. The district has an 11-
member board, eight of whose members come from private 
industry. Eight of those members come from one of our four ship 
channel zones. One board member is appointed by the Harris 
County Mayors and Councils which has 36 other member cities, 
but their appointee has to come from one of the eight cities 
along the ship channel.
    So this is a very good model, and I would encourage this 
body to further look at how that has worked well for us.
    Mr. McCaul. Madam Chairwoman, the theme of this hearing is 
cooperation to enhance security, and I think this is a great 
model that works, that could be a good model to apply across 
the country.
    You mentioned the helicopter drones, which I think is a 
very interesting idea, a lot more cost-effective. Perhaps, 
General, you can provide some assistance with that effort. I 
think that would be a very cost-effective way to patrol the 
Houston Port Authority and ship channel.
    While we have you on this topic, General, I can't help 
myself but ask if there are going to be additional UAVs 
deployed. Do you anticipate any of those being deployed in 
Texas?
    General Kostelnik. I recall there were two added assets 
that you all were supportive of, and the first one of those 
will be going to NAS Corpus Christi. That will give us a 
Predator with synthetic capture radar which is very important 
for the hurricane, where 3 years ago we flew the coastal line, 
all across Texas, all across Florida and Louisiana up to Dover, 
Delaware. So those data maps are there. The second aircraft 
will be going to Sierra Vista, and that will give us six 
aircraft on the Southwest border. Because of the ops concept 
and the way we fly them, on any given day there could be three 
or more aircraft in Texas. They are routinely now flying 
nightly, not only in the Rio Grande Valley, but up through 
Laredo and up through El Paso and across the top part of Texas 
from Sierra Vista.
    Those six aircraft you can think about as being 
interchangeable, but recall it is not just the aircraft, it is 
the ground support equipment, the GCSs, all the infrastructure 
that are necessary to make all those things work. So initially 
there will be just be the two aircraft in Corpus and four at 
Sierra Vista. Then the Guardian we think will probably be 
deployed out of the Cape. That will give us two Guardians 
there, one for deployed activity and one to support the 
Caribbean.
    So slowly but surely we are laying in the UAS assets across 
the country to provide a very critical National contingency 
response.
    Now 2 weeks ago we flew the Mississippi Valley. That is the 
first time the Reaper class vehicles have flown that far. They 
flew from New Orleans all the way up to Memphis. Today we are 
flying--at the request of NOAA--the floods in Iowa, and we are 
prepping for more work in North Dakota and we flew floods there 
a couple of weeks ago.
    So not only are these assets important for security, but 
they give us a unique and unprecedented capability for a wide 
variety of National contingency responses.
    Mr. McCaul. I agree, and thank you for that.
    Admiral, a final question. I went on a delegation to 
Colombia, Panama, and then Mexico City. When we were in Panama, 
the Panamanian President made an interesting observation. He 
said, you know, the canal is really the chokepoint. We talk 
about drug interdiction, they basically, these boats, these 
fast boats, will go, and submersibles will go around the canal 
and load off into Mexico and Guatemala.
    He recommended the idea of naval ships down there and Coast 
Guard assets to basically choke it. I mean, it is a natural 
chokepoint, and if we could get more assets down there, we 
could literally stop, I believe, a tremendous amount of flow of 
narcotics going north into Mexico and then into the United 
States.
    Do you have any thoughts on that?
    Admiral Zukunft. I spent the better part of my career 
chasing go-fasts, and then they changed to semi-submersibles. A 
year ago we saw about 60 percent of the drugs coming up the 
eastern Pacific, 40 percent in the western Caribbean. Today it 
is about 50/50. We are seeing what used to be average loads of 
up to 5,000 kilos are now down to about 1,600, but still 
significant loads.
    But they are running in littoral areas, particularly in go-
fasts with relatively smaller loads, but they are spreading the 
risk out by making multiple runs. All of these are running, 
typically starting in the source zones, in the jungles of 
Colombia where the loads are first picked up, and then they 
will follow along the Gulf of Panama, bypassing--their 
objective is to avoid detection, so they will stay out of any 
primary shipping lanes and then typically they will make the 
run at night and then make the deliveries in the eastern 
Pacific, it is typically in Guatemala, and then those loads are 
broken down eventually into Mexico and then smaller loads as 
they come into the United States. We are seeing similar 
challenges in the western Caribbean with Honduras.
    So there is really no clear chokepoint, if you will. Our 
real challenge has been in being able to put enough resources 
down there, both Navy and Coast Guard. While we have the 
authorities, again, that does become a resource challenge of 
how do you cover an expanse that is literally the size of the 
United States and on any given day you are looking for one or 
two small boats. So that does become a challenge.
    Air surveillance and intelligence are key enablers in that. 
So as we do these interdictions, we really need to get the 
prosecution. That is where we get the pocket litter that feeds 
that intelligence cycle to know why we need to position 
resources, because we can't be the cop on the beat at all 
places at all times. But we haven't found that natural 
chokepoint in those shipping areas. They are watching us as 
much as we are trying to find them.
    Mr. McCaul. So they keep changing the game. When you go to 
one place, they go somewhere else.
    Admiral Zukunft. That is correct.
    Mr. McCaul. I see my time has expired. Thank you.
    Mrs. Miller. I thank the gentleman.
    The Chairwoman now recognizes the gentleman from Virginia, 
Mr. Rigell.
    Mr. Rigell. Thank you, Madam Chairwoman, and I thank each 
of the witnesses today. I am very grateful that you keep us 
safe. So thank you for being vigilant.
    You know, we know that those who want to harm our country, 
they are tenacious and they adapt, and weapons are getting 
smaller, they are getting more lethal and they are certainly 
becoming more affordable. So I think we need to adopt somewhat 
of the mindset of our friends in Israel, just, you know, every 
Israeli citizen has this keen sense of being observant. So 
toward that end, we have the American Waterways Watch and that 
is the equivalent of the See Something-Say Something campaign, 
and this is a program, of course, for boaters.
    But there is an important distinction between those two 
programs, and specifically it is that there is no immunity 
granted for people who are on the nautical side for America's 
Waterways Watch, whereas they do have immunity on the See 
Something-Say Something campaign. So, I suppose I could direct 
this to any of you. Admiral, I will direct it to you.
    Do you see any reason why we would not want to reconcile 
those two programs and give immunity to those who, under 
reasonable conditions, you know, are suspicious of activity and 
report that same activity?
    Admiral Zukunft. We have roughly 17 million recreational 
vessels in the United States. That is quite a Navy that I could 
leverage. But perhaps maybe one of those 17 million is an actor 
who means to cause harm to the United States. I would fully 
support such a measure so we can leverage that American 
Waterways Watch, because they are the ones on the water, they 
are the ones that are probably first going to detect that 
anomaly. Because even our Coast Guard crews that rotate every 4 
years may not have that local knowledge, but that local 
knowledge is absolutely critical in feeding that key piece of 
information.
    Mr. Rigell. So just based on what you have just said, it is 
pretty clear then that you would support just reconciling those 
two programs to give immunity to those who do the same thing on 
the waters, those who would do something like that under the 
See Something-Say Something campaign?
    Admiral Zukunft. Unequivocally.
    Mr. Rigell. Okay, thank you so much.
    Following up on a different line here, you mentioned in 
your testimony the Joint Harbor Operation Centers set up by the 
Coast Guard and also, of course, the Navy. Now, in our own 
area, I have the privilege of representing Virginia's Second 
Congressional District, and you have been there, I am sure. We 
have the largest concentration of Coast Guard personnel and it 
is just a real honor to have you in our area.
    But in that, the Joint Harbor Operations Center, as I 
understand it, the Navy is no longer going to participate in 
that in 2012. So is that being done with your concurrence? Is 
that being done over the Coast Guard's objection? What is the 
Coast Guard's view of specifically the Joint Harbor Operations 
Centers?
    Admiral Zukunft. I am very familiar with that. First of 
all, we meet every year with the Navy staff, with the CNO and 
his staff at the four-star level, and we were well aware this 
was going to be a resource challenge. I have served on four 
ships in Hampton Roads, and we have a long-standing 
relationship with our Navy brothers and sisters in that port. 
So we are able to make that virtual connection.
    So we don't have a uniformed member there in that JHOC. We 
do in San Diego, we do in Puget Sound. But that does not mean 
the information flows. It is a 24-hour watch and we are still 
able to push that information to the Navy. So we have a very 
rich, collaborative relationship. We just do it now in a 
virtual environment.
    Mr. Rigell. So you sleep well at night, if I may phrase it 
that way, just based on that decision in Hampton Roads, and we 
haven't really degraded our security as a result of that?
    Admiral Zukunft. Not in the least.
    Mr. Rigell. Sheriff Garcia, thank you for being here again 
today. I know the immense responsibility you have there in the 
Houston Port Authority. I will tell you, if I told our Norfolk 
sheriff, Sheriff McCabe, that he had the same responsibility in 
Hampton Roads that you do, I don't know what he would say. So I 
am just intrigued, and in the few seconds I have here, if you 
could help me to understand, it seems like so much of what you 
are referring to generally would be a Federal responsibility.
    So to the extent you are conducting Federal operations, I 
mean, I would say here even as a strong fiscal conservative, we 
need to make sure that you are funded, if in fact you are 
really taking over some responsibilities that we think 
traditionally to be Federal responsibilities.
    Sheriff Garcia. Well, thank you, and it is an incredible 
responsibility. I have always said since becoming sheriff of 
the community that it is the one area that does keep me up at 
night, making sure that we are doing everything possible to 
make sure that it is as safe as possible. But making sure that 
we do--you know, we are providing a very critical operation. It 
does speak to the National security of our country. So that is 
why having the necessary personnel to deploy there is critical. 
It is not something I want. It is something I need.
    So, conducting those operations and working as closely as 
we do with the U.S. Coast Guard and our other Federal partners 
there, CBP, with the FBI, DEA, all of the operations that we 
work very jointly there in that area, really speaks to a true 
National security effort that we are taking as much of the 
responsibility over.
    Mr. Rigell. Thank you. My time has expired.
    Mrs. Miller. I thank the gentleman.
    The Chairwoman now recognizes the gentlelady from Texas, 
Ms. Jackson Lee.
    Ms. Jackson Lee. Madam Chairwoman, let me thank you very 
much for this hearing, and to the Ranking Member as well. I 
appreciate the hearing.
    As a little backdrop for the gentlemen that are here, I 
thank those with the Coast Guard and Homeland Security and our 
two sheriffs. A little background, I just recently returned 
from Panama, Colombia, and Mexico, where we were discussing the 
waterways and the challenges that they have with respect to the 
waterways and the dependence upon the United States Coast 
Guard.
    Now, we have come to understand that any intrusion into our 
border is a threat on the homeland. It could be major, 
disastrous, devastating drug cartels who are violently plaguing 
innocent users of the waterways and then using those waterways 
to make their way up to the United States or to cause havoc. 
So, the importance of your work and this hearing is more than 
crucial. It is more than necessary to have a hearing to focus 
on any penetration of America's boundaries.
    I want to express my appreciation to the Coast Guard and 
quickly, if I could, Admiral, just get a quick comment on how 
important it is to be vigilant on intrusions into our 
waterways.
    Admiral Zukunft. Well, that vigilance starts well beyond 
our waterways. So as we look at the South border, we look at 
the South border of Mexico, because that is really where the 
threat to their homeland originates, which it then migrates 
into our homeland as well. So we have a long-standing 
relationship with the Mexican Navy that does have leads for law 
enforcement. We do not have a bilateral agreement with Mexico, 
but we have been able to work operations center to operations 
center and formalize standard operating procedures where we do 
share information.
    Ms. Jackson Lee. Can you utilize more assets, more 
resources?
    Admiral Zukunft. Well, that would be an understatement, and 
certainly that does continue to be our challenge.
    Ms. Jackson Lee. Do you realize, I know you realize that 
our embassy and the personnel that are in our embassy that deal 
with sort of overlapping between Homeland Security, but I think 
it is sort of emergent to each other, really need your assets 
in those waters off of Panama and in the Colombian area. You 
understand that?
    Admiral Zukunft. I certainly do. So our intelligence, our 
common intelligence picture is improving. Our collaboration is 
improving. But you can have all the authorities, all the 
information, but if you don't have the interdiction assets, 
then the bad guys are going to win.
    Ms. Jackson Lee. And the personnel. Your assets have been 
very helpful to them. I want to give you that compliment. They 
really appreciate it. Just your presence on the water makes a 
difference.
    Sheriff Garcia, I want to go to you. I am glad we have a 
sheriff from the south and the north. But you made a very valid 
point that in the course of our capturing Osama bin Laden we 
have seen materials that suggest beyond aviation, rail, that 
our waterways are a target. You made a point about Harris 
County, that there are many, many cities, and you made another 
valid point about monies going to the county entity and not 
necessarily getting to the direct agency such as the sheriff's 
department that is in need.
    Speak to the concerns that you have again, and let me thank 
your men and women for their service, on not being able to get 
monies because you have had attrition versus the term layoff. 
You still are not getting the resources that will allow you to 
staff up for the major responsibility that you have, many 
others, but around the port area.
    Sheriff Garcia. That is correct, Congresswoman Jackson Lee. 
Thank you for your leadership on this issue. It is imperative--
you know, I am a big proponent that providing presence is one 
of the greatest deterrents that we can offer. So we have a 
particular staffing model that we would like to deploy at the 
Houston ship channel for our relationship to the Houston Ship 
Channel Security District. But right now we are a far cry from 
being where we would like to be, even as a start. So it is 
imperative that I continue to advocate for the COPS funding and 
for other funding opportunities that allow for the hiring of 
personnel.
    The UASI grants have been an incredible resource to us. We 
have been able to use that to appropriate incredible technology 
that is obviously making things a lot easier for us. But at the 
end of the day we need people to watch that technology, we need 
people to utilize that technology. We need people in boats, we 
need people to be able to maintain that first responder 
presence and vigilance out in this critical infrastructure. So 
that is why I continue to lean back on the need to have funding 
opportunities that allow us to hire full-time people and not 
depend on overtime. We are burning out our people with 
overtime.
    Ms. Jackson Lee. Could my northern sheriff answer that 
question too, with the potential of the COPS grants being 
zeroed out? Just the amount of resources you need to continue 
to do--the partnership between you and the Federal Government, 
how important that is.
    Sheriff Donnellon. Well, we have a great partnership with 
the Federal Government, and we have significant issues on our 
borders as well as far as infrastructure. For example, the 
water plant for the City of Detroit, the water intake for the 
potable water is located 10 miles north of the Blue Water 
Bridge in 200 feet of water, and our dive team, which is 
responsible for anything underwater, is primarily volunteer on-
call. So any resources are much needed, or tools for the 
resources, such as equipment and training.
    We have a significant chemical valley just across the river 
in Sarnia that is extremely large. That is also a grave concern 
for us.
    Ms. Jackson Lee. Let me thank all of the witnesses, Madam 
Chairwoman. I know that I would have wanted to approach all of 
our witnesses. But I want to thank the former General with the 
affiliation with NASA and his service, and we will rise again 
just as we will protect the homeland. I do thank you all.
    I yield back to the Chairwoman and to the Ranking Member.
    Mrs. Miller. I thank the gentlelady.
    The Chairwoman now recognizes the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman.
    As I said many times, being from South Carolina, we are 
about as far away from the Southern and Northern borders as you 
can get, but it is very much a concern for South Carolinians 
that we secure this great Nation. I want to commend the 
gentlewoman from Texas for acknowledging the facts that we do 
have a problem and we should be able to determine who comes 
into this country and what comes into this country.
    I want to further acknowledge in the General's statement, I 
believe it is, it says the CBP is responsible for securing 
America's borders against threats while facilitating legal 
travel and trade. Then it goes on and says their approach to 
enhance the security of our borders while facilitating the flow 
of lawful people and goods entering the United States. That is 
a great statement of your mission. I commend you guys for what 
you do, because you are fulfilling the constitutional role in 
Article IV, Section 4. It says the United States shall 
guarantee every State in this Union a republican form of 
government and shall protect each of them against invasion.
    If you look up the definition of ``invasion,'' it will lend 
you to think that we may have some issues on some of our 
borders, specifically the Southern border.
    But being from South Carolina, I am very interested, guys, 
in the Charleston port and what is going on down there with the 
Interagency Operations Center known as SeaHawk, which I think 
is a very successful on-going operation in IOC. These were 
created, IOCs were created to create an environment where 
different agencies could come together under one roof and work 
collectively toward a common goal of securing a harbor, and I 
think SeaHawk is something that can be held out as a working 
model.
    But what are the benefits, and I am going to ask the 
Admiral this, what are the benefits to having various agencies 
working together under one roof?
    Admiral Zukunft. Well, I have been to the SeaHawk facility 
for the ribbon cutting, and the real value added is, one, we 
stand a 24-hour watch there, which as we look at other 
agencies, we do this for search and rescue, but we also provide 
law enforcement awareness, push information. But it is a 
challenge for other agencies to stand a 247 watch, because as 
we have heard, the demands on human resources.
    The key value there is we have the container targeting team 
that CBP provides, and we have had some tremendous successes on 
some illicit cargo that has been intermingled with legitimate 
cargo coming into the port of Charleston. So that really has 
made a difference. So it really gets to having that awareness 
as that container leaves perhaps a port in Singapore or perhaps 
in a European port or other place, coming to Charleston. Then 
aiding and abetting the gang violence that our sheriffs are 
trying to fight on a daily basis.
    So as much as that illicit cargo that we can keep out of 
the hands of the gangs, but be able to do that through a 
collaborative effort, the SeaHawk does provide that model, if 
you will.
    Mr. Duncan. All right. You were saying the mini-subs and 
the smuggling operations on the West Coast, and I am assuming 
maybe on the East Coast as well. But do you all have a similar 
facility out on the West Coast where agencies work together for 
drug smuggling and maybe human trafficking and that sort of 
thing?
    Admiral Zukunft. We have a JHOC, Joint Harbor Operating 
Command, in San Diego. But as we look at the drug threat, that 
really is--the center of excellence for that would be at our 
Joint Interagency Task Force based in Key West, Florida, which, 
again, is interagency. It is also international and commanded 
by a Coast Guard flag officer.
    Mr. Duncan. Madam Chairwoman, I will be glad to yield back. 
But I just want to thank you guys. A lot of times we think 
about Customs and Border Patrol and securing this Nation. The 
harbors, the ports are left out of that and we think about the 
borders more than anything. But I keep in mind always that the 
ports, the oceans, they are our borders as well. So thank you 
guys for what you do to keep this great Nation safe.
    Madam Chairwoman, I yield back.
    Mrs. Miller. Finally, the Chairwoman would recognize Mr. 
Pierluisi from Puerto Rico.
    Mr. Pierluisi. Thank you, Madam Chairwoman.
    Protecting our Nation's maritime borders is a matter of 
great importance to Puerto Rico as well. As Federal officials 
curb the flow of drugs across the U.S. Southwest border, drug 
trafficking organizations are increasingly turning to the 
alternate Caribbean pathway leading to an unacceptably high 
number of drug-related murders. I come to this hearing 
concerned that there is a mismatch between the level of drug-
related violence in Puerto Rico, as you know, a U.S. Territory, 
and the size and scope of the Federal response.
    So, Admiral, I am concerned that Sector San Juan does not 
have any fixed-wing coastal patrol aircraft permanently 
stationed on the island and won't until 2018. That is not only 
my concern, but also the concern of the Appropriations 
Committee of this House, which in the Homeland Security 
appropriations report questioned whether the Coast Guard was 
meeting the request for maritime surveillance hours made by the 
Joint Interagency Task Force South. So, I have just a couple of 
questions for you.
    Is the rotation of one fixed-wing coastal patrol aircraft 
between Florida and Puerto Rico sufficient in your opinion to 
address the Coast Guard's interdiction responsibilities in the 
Caribbean?
    Admiral Zukunft. Well, quite frankly, no. It is an 18-hour 
go-fast ride from the Guajira Peninsula to Puerto Rico. Puerto 
Rico is really at the frontline of the United States for go-
fast activity. We don't particularly have cocaine-laden go-
fasts coming into San Diego from Miami, but San Diego is on the 
forefront.
    We do look at how do we best leverage our resources with 
CBP and also putting helicopters at sea at the approaches. It 
is part of our Steel Web Campaign, which is the drug campaign 
for Puerto Rico. But that is a concern of mine, that it is a 
very illusive threat. They typically run at night, and you 
really need that constant surveillance to be able to make a 
difference.
    Mr. Pierluisi. I appreciate your candor, because I think it 
was said here before, this is like a moving target. So it makes 
no sense, Madam Chairwoman and Ranking Member, to devote all 
resources or put all your eggs in one basket. You need to keep 
an eye on the Caribbean as well. The drugs that go through 
Puerto Rico end up in Florida, and it could be even Texas or 
Mississippi. So we need to be smart about this.
    Now, how many maritime surveillance hours does the Coast 
Guard currently devote to Puerto Rico? Do you have that 
statistic, Admiral?
    Admiral Zukunft. I can provide that for you. But we often 
will provide resources from Miami that will stage out of Puerto 
Rico. But most of that surveillance is done by helicopter in 
the approaches, and also we partner with CBP as well. I will 
say that our aircraft hours overall for counterdrug did go down 
in support of JIATF South this past year, primarily due to 
aviation maintenance, but also the delivery of our medium-range 
surveillance aircraft. We will eventually get to 36 of those, 
but we had to pause the delivery of those as we are making some 
very difficult choices in recapitalizing our fleet. But we need 
to recapitalize our air wing as well.
    Mr. Pierluisi. I understand that this new aircraft, the HC-
144, the Ocean Sentry, will be arriving to Puerto Rico in 2018, 
as I said. In the meantime, I see two possible options. Can we 
advance that delivery date, or, in the alternative, assign to 
Puerto Rico current aircraft deployed elsewhere? Are those 
possibilities?
    Admiral Zukunft. Well, we do on a routine basis, as we have 
done with aircraft staged both out of Clearwater and Miami 
where the C-144s will be located, routinely support those 
approaches to the U.S. Virgin Islands and Puerto Rico as well, 
and that is a normal patrol area for them, as well as the 
migrant flows coming off of Cuba as well. So we have set patrol 
areas. For the time being, they are staged out of Miami and 
Clearwater, so we do lose that critical transit time that they 
could otherwise be actively patrolling from the moment their 
wheels are up.
    Mr. Pierluisi. Thank you. I am running out of time, but 
Commissioner, just turning to CBP and basically OAM, I know 
that there is an on-going partnership and I know all you do. 
But I want to have a better understanding of the way you are 
funding OAM's operations in Puerto Rico. Would you be so kind 
as to give me a briefing in the near future in my office?
    General Kostelnik. We absolutely would be happy to do that. 
As you realize, a lot of the growth infrastructure was funded 
by the Puerto Rican Trust Fund and there are issues, legal 
issues, that have caused some reduction in the maritime 
capability. I would mention we do provide a very good aviation 
support with the Dash-8s, and also as we get the Second 
Guardian into the Cape, those aircraft are destined for 
Caribbean options, and particularly Puerto Rico.
    Mr. Pierluisi. Thank you.
    Thank you, Madam Chairwoman.
    Mrs. Miller. I thank the gentleman for his questions, and I 
thank him for joining the committee here as well.
    First of all, I would just remind all the Members that the 
hearing record will be open for 10 days. So if you have any 
additional questions we will ask our witnesses to answer in 
writing, if possible.
    But that was really the impetus of this hearing, not only 
cooperation amongst the various agencies, et cetera, but as has 
been mentioned here numerous times, we think about border 
security, we think about the Southern border, we think about 
the Northern border. We don't sometimes think about our coastal 
borders, and we have to take a comprehensive approach to border 
security.
    I always say that the first and foremost responsibility of 
the Federal Government is to provide for the common defense. 
That is in the Preamble of the Constitution, which means 
National security, homeland security, border security. All of 
those things fall under that umbrella, I think. As we are 
spending money on all kinds of things at the Federal level 
here, we do have to think about securing our borders certainly.
    Again, I just want to thank all of the witnesses for 
coming. I thought the testimony was excellent and the question-
and-answer period was excellent as well, and in particular our 
two sheriffs who come from the local perspective, I thought 
both gentlemen handled yourself very well with the questions 
and it was very enlightening for all the Members as well.
    So thank you all very much. With that, the committee will 
stand adjourned.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

  Questions From Chairwoman Candice S. Miller for Michael C. Kostelnik
    Question 1. Are any of your officers participating in the Shiprider 
program or training? Are any of them qualified to take part in joint 
operations with Canadian officers, or other partner nations? If this 
program was further expanded, would it be helpful to receive this 
training and have your officers participate?
    Answer. The U.S. Coast Guard (USCG) is the ``Central Authority'' 
for the United States and the Royal Canadian Mounted Police (RMCP) is 
the ``Central Authority'' for Canada for the Framework Agreement on 
Integrated Cross-Border Maritime Law Enforcement Operations, commonly 
known as ``Shiprider.'' The U.S. Department of Homeland Security (DHS) 
is drafting a DHS Shiprider Management Directive and the Coast Guard 
continues to develop internal operational documents to support this 
program.
    Currently the U.S. Customs and Border Protection (CBP) Office of 
Border Patrol has four Shiprider-trained personnel, and they are all 
from the Swanton Sector. CBP Office of Air and Marine (OAM) Agents are 
not currently participating in the Shiprider program; however, OAM 
welcomes the opportunity to participate in the Shiprider program, and 
is currently working with USCG to identify personnel requirements for 
the program which will further enhance United States and Canadian law 
enforcement and security missions.
    In October 2010, Canada Minister of Public Safety Vic Toews 
introduced to the Canadian Parliament the Keeping Canadians Safe 
(Protecting Borders) Act, which included a provision that would ratify 
the Framework Agreement. The bill, however, died due to a ``no 
confidence'' vote in the Canadian parliament and will have to be re-
introduced to Parliament under the new government.
    There are no current operations currently underway under the 
Framework Agreement because Canada has yet to ratify it. Although DHS 
concurs with the Shiprider concept, DHS cannot comment on the new 
legislation because it has not yet passed Canadian Parliament.
    OAM and OBP, however, regularly and actively participate with our 
Canadian law enforcement counterparts to address immediate smuggling 
events. Additionally, CBP actively participates in the Integrated 
Cross-Border Maritime Law Enforcement and the Integrated Border 
Enforcement Teams to address border security operations. In 2010, the 
U.S. Coast Guard and U.S. Customs and Border Protection partnered with 
RCMP in Toronto to support security efforts for the G20 Summit, as well 
as supported the 2010 Vancouver Winter Olympics.
    Question 2. In the most recent report to Congress, CBP identified a 
reemergence of the use of ultra-light aircraft by drug trafficking 
organizations to cross the U.S.-Mexico border in Southern Arizona. What 
is CBP doing to counter that threat? Is there a comparable threat on 
the Northern border?
    Answer. CBP employs significant resources on the Southwest border 
and is working with the government of Mexico and multiple Federal, 
State, local, and Tribal law enforcement agencies to detect, deter, 
interdict, and apprehend trans-national air incursions. The use of 
ultra-light aircraft (ULA) to smuggle contraband into the United States 
is a method that criminal elements utilize primarily in the Southwest 
border region. There is no known validated ULA threat along the 
Northern border at this time.
    The use of ultra-light aircraft by criminal organizations to 
further their cross-border smuggling activities is an on-going focus of 
CBP and U.S. Immigration and Customs Enforcement (ICE). CBP clearly 
recognizes the threat from cross-border ULA activity and has taken a 
proactive approach towards combating that threat. The CBP Air and 
Marine Operations Center (AMOC) is a 24/7 state-of-the-art law 
enforcement radar surveillance center designed to counter airborne 
smuggling, and serves as a repository for information pertaining to ULA 
activity.
    AMOC coordinates with CBP field locations to engage appropriate 
enforcement response to trans-national air incursions on both sides of 
the U.S./Mexico border. CBP and ICE work together with Mexican 
Authorities and respond to all suspected air incursions in order to 
interdict and investigate the event. CBP is actively pursuing 
deployment of transportable, commercial sensors designed to enhance 
detection and tracking of ULA and other low-flying aircraft.
    CBP encourages the public to report suspicious or low-flying 
aircraft to AMOC through its toll-free number at 1-866-AIR-BUST.
    In an effort to increase capabilities, CBP is working closely with 
DHS/Science and Technology Directorate (S&T) to identify, develop, and 
transition critical technologies to detect and track small, stealthy 
aircraft. Ultra-lights as well as small fixed-wing aviation and 
helicopters continue to challenge standard detection methods. As an 
example, in March 2011, CBP/Air & Marine finished a joint testing 
program with DHS/S&T and the USAF Test Pilot School at Edwards AFB, CA 
to determine the level of our current air interdiction capability and 
find ways to improve our effectiveness in detecting and tracking these 
small aircraft. Results showed that changes in the patrol pattern, 
intercept geometry, of CBP aircraft could increase our ability to 
detect and track small aircraft.
    Question 3. What types of missions do CBP UAVs perform and what is 
the cost per flight hour? What would be the comparable cost per flight 
for a manned fixed-wing aircraft?
    Answer. CBP Unmanned Aircraft Systems (UAS) missions include 
reconnaissance, surveillance, and tracking to provide effective on-
call, dynamic surveillance (typically cued by Border Patrol agents or 
unattended ground sensors). CBP UAS provide situational awareness 
through covert monitoring of areas of interest or high-threat 
environments while providing real-time images to agents on the ground.
    In addition to its border security mission, the CBP Office of Air 
and Marine (OAM) also utilizes UAS as a force multiplier during 
emergency and disaster response efforts, including those of the Federal 
Emergency Management Agency (FEMA), the U.S. Coast Guard (USCG), U.S. 
Geological Survey, and other Department of Homeland Security (DHS) 
partners. There is no comparable manned aircraft in the OAM fleet that 
can operate as long or as covertly as the UAS that OAM currently 
employs. As an example the mission endurance for a P-3, a manned fixed-
wing aircraft, is 10-12 hours (compared to up to 18-20 hours with the 
UAS).
    A direct comparison between UAS flight-hour cost and any other 
aircraft's operating cost is difficult to determine because of the 
extreme differences in missions, capabilities, and operating expenses. 
Also, like all aircraft flight cost estimates, UAS estimates fluctuate 
frequently due to multiple factors including fuel and satellite access 
cost changes, system upgrade/development cost (often a factor with new 
technologies) and relocation expenses (driven by high demand for the 
unique UAS capabilities and limited UAS assets).
    Question 4. Recently, CBP has launched a multi-role enforcement 
aircraft project to replace multiple types of aircraft. What is the 
current status of that project and how many aircraft are planned to be 
acquired within the next 5 years? How does the cost per hour and the 
capabilities of this aircraft compare to the Guardian UAV?
    Answer. CBP has a competitively awarded contract with the Sierra 
Nevada Corporation in Hagerstown, MD to acquire up to 30 Multi-role 
Enforcement Aircraft (MEA). Currently, five MEAs are on order, funded 
in fiscal years 2007, 2008, and 2009. The first MEA was delivered in 
mid-June; it has completed preliminary Operational Testing and is 
deployed to the Southwest border for operational use and pilot 
training. The next three MEAs are scheduled for delivery by end of 
calendar 2011. The fifth is scheduled for delivery in February 2012. 
There are no additional MEAs funded by fiscal year 2010, 2011, or 2012 
budget allocations.
    We cannot answer the MEA cost per flight hour question at this 
time. The first MEA placed into service (MEA No. 1) began operations on 
June 20, 2011. On July 20, 2011, 1 month later, MEA No. 1 completed 200 
flight hours and went into a mandatory 200-hour scheduled maintenance 
inspection. MEA No. 1 completed a post-maintenance inspection flight on 
August 9. Less than 2 months of operational data on a newly-introduced 
aircraft is insufficient time to gather reliable operational cost data. 
Once the MEA has been in service a full year accurate and reliable cost 
data will be available. As for the capabilities, both aircraft have 
comparable long-range maritime search radars, day/night cameras, the 
potential to carry signals direction-finding equipment, Ku-Band (The 
Ku-band is the 12GHz to 18GHz portion of the electromagnetic spectrum 
in the microwave range of frequencies) satellite down link 
capabilities, and the capability to carry synthetic aperture radar 
systems. The Ku-band was selected because it provides a stable signal 
through weather and permits federated use with other platforms having 
Ku-band capability. Ku-band is currently installed on aircraft that 
routinely deploy beyond line of sight of land, i.e. UAS, P-3, and DHC-8 
aircraft. The maximum mission duration for the MEA is 6 hours, while 
the Guardian can fly up to 18-20 hours in a single mission.
        Question From Hon. Mike Rogers for Michael C. Kostelnik
    Question. General Kostelnik, what is Air and Marine's plan for 
acquiring additional UAVs? How many assets does your strategic plans 
call for given the current resources available to each? During your 
testimony to this subcommittee on March 15, 2011, you discussed the 
huge cost savings that UAVs provide over manned assets. You 
specifically stated that the Guardian UAV hourly cost is around $3,500, 
or roughly $3,000-$3,500 less expensive per flight hour than a P-3 and 
about $500-1,000 less expensive per flight hour than a Multirole 
Enforcement Aircraft? Based upon these cost savings, have you 
accelerated OAM's plans to acquire more UAVs? Have your cost estimates 
changed over the past few months, and do these estimates take into 
account the full acquisition, personnel, and operational costs for 
these aircraft?
    Answer. OAM's strategic plan calls for a UAV end state of 24 
aircraft. Availability of funds to purchase and, more importantly, 
maintain and operate these aircraft will dictate the pace of 
procurement.
    CBP aircraft acquisitions are based on validated operational 
requirements with capabilities tailored to optimize their performance 
for specific mission sets within the limits of available funding. 
Direct cost comparisons are not an effective guideline for determining 
the optimum aircraft mix to accomplish CBP's mission.
    There is no comparable manned aircraft in the OAM fleet that can 
operate as long or as covertly as the UAS that OAM currently employs. 
The cost per flight hour categories used to calculate the UAS cost per 
flight hour and the categories that comprise the other aircraft, 
including the P-3, cost per flight hour are not exactly the same. 
Therefore, a direct category-by-category comparison between UAS flight 
hour cost and any other aircraft's operating cost is difficult to 
determine. Furthermore, there are extreme differences in missions, 
capabilities, and operating expenses associated with the UAS and other 
aircraft. The UAS and P-3 are complimentary assets as each brings 
unique capabilities to the border security mission. Also, like all 
aircraft flight cost estimates, UAS estimates fluctuate frequently due 
to multiple factors including fuel and satellite access cost changes, 
system upgrade/development cost (often a factor with new technologies) 
and relocation expenses (driven by high demand for the unique UAS 
capabilities and limited UAS assets).
     Questions From Hon. Michael T. McCaul for Michael C. Kostelnik
    Question 1. I was pleased to hear that an additional UAV will be 
stationed in Texas later this year. Would you please keep my staff 
informed as this deployment moves forward? In addition, the Texas 
Rangers and Department of Public Safety have brought it to my attention 
that the absence of a UAV based along the border has already hindered 
law enforcement operations. Poor weather has caused numerous UAV 
flights from Corpus Christi to be cancelled over the past few years. As 
you know, both Federal and State law enforcement rely on the critical 
surveillance that these systems provide. Having a UAV system readily 
available along the border is crucial to their mission. Specifically, 
how many maritime UAV flights out of Corpus Christi have been canceled 
due to environmental conditions? How do the weather constraints on CBP 
UAV compare to the constraints on your manned assets? Furthermore, have 
you considered moving your Texas-based UAV to locations closer to the 
border with Mexico, such as in Del Rio, Texas? How much would it cost 
to move the current UAV and/or station the new UAV to a location along 
closer to the border?
    Answer. The cost of relocating or establishing a UAS site is 
dependent on a number of variables that precludes the ability to 
provide a reasonable ``generic'' cost estimate. CBP's existing UAS 
sites allow OAM to leverage existing aviation infrastructure and 
support services which results in considerable cost avoidance.
    As of 15 November 2011, UAS aircraft stationed at the National Air 
Security Operations Center, Corpus Christi were scheduled to fly 191 
times, with 41 of the flights cancelled in some part due to weather. 
Two major factors contributed to the unusually high weather 
cancellation rate: Unusual spring weather patterns across the entire 
South Texas region and the operational safety requirements pertaining 
to weather contained in our Certificate of Authorization (COA) from the 
FAA.
    Prior to April 18, 2011, the FAA required UAS to operate with cloud 
ceilings of no lower than 3,000 ft above field elevation and no less 
than 5 miles of visibility for launch and recovery. Due to the UAS not 
having a pilot on board the aircraft, the FAA mandates these minima in 
order to provide an environment for both visual observers, acting as 
the ``eyes'' for the UAS, and other pilots to ``see-and-avoid'' UAS. 
That requirement, coupled with the low ceilings and higher than normal 
winds caused by the unusual spring weather over South Texas, severely 
hampered UAS operations out of Corpus Christi.
    After an FAA review of required weather minima in April 2011, the 
weather requirement has been eased, and CBP UAS are now required to 
``maintain cloud clearances consistent with Visual Flight Rules (VFR)'' 
(3 miles of visibility for launch or recovery). While this adjustment 
does provide some relief from the impact of adverse weather, the 
current FAA requirements continue to mandate UAS aircraft to operate 
under VFR rules in airspace where encounters with other aircraft could 
occur.
    CBP continues to work with the FAA on safe integration of UAS into 
the NAS at all CBP operational locations and toward the establishment 
of approach procedures that would allow the UAS to land in instrument 
conditions.
    CBP conducted extensive research into numerous locations before 
selecting NAS Corpus Christi as an UAS site. NAS Corpus Christi best 
meets the requirements for UAS operations because of its available 
maintenance facilities, minimally restrictive airspace and normally 
favorable weather conditions. One of the most important advantages of 
operating UAS out of NAS Corpus Christi is the availability of 
experienced CBP pilots and sensor operators already stationed at that 
location. By dual qualifying P-3 operators at NAS Corpus Christi in the 
UAS, OAM has effectively added 13 UAS pilots, 12 sensor operators, and 
a fully operational UAS site to the National border security effort 
without needing to hire any additional UAS aircrew members.
    Question 2. I was under the impression that the Office of Air and 
Marine operated and controlled all of the boats that CBP maintains. 
However, I have heard that the Border Patrol also operates some boats, 
in 37 different locations with more than 340 Border Patrol Marine 
agents, for CBP. Wouldn't it make sense to consolidate control of these 
assets under one assistant administrator within the agency? Can you 
address the overlap between the Border Patrol having its own boats 
instead of those boats being under the administration of OAM?
    Answer. In 2005, DHS transferred control of the ICE Air and Marine 
programs to CBP. On January 17, 2006, CBP officially announced the 
integration of its marine program with the air program, creating the 
Office of CBP Air and Marine, which is now called the Office of Air and 
Marine (OAM).
    OAM was assigned the responsibility for CBP marine budget planning 
and execution, vessel procurement and maintenance, and the 
administrative management of all agency marine resources. OAM was 
further tasked with establishing safety and operational standards as 
well as developing and delivering comprehensive training and conducting 
individual evaluations of all CBP marine personnel. The Border Patrol 
has the primary responsibility for Border Security between official 
Ports of entry and, as such, has the tactical, day-to-day oversight of 
all air and marine operations along the Northern and Southern Borders.
    CBP divided the marine theater into two distinct environments: 
Riverine and Coastal. CBP determined that these two different operating 
environments necessitated having more than one position. CBP then 
created the Marine Interdiction Agent (MIA) and Border Patrol Agent--
Marine (BPA-M) positions. The MIA position (re-titled from U.S. Customs 
and ICE Marine Enforcement Officer position) within OAM provides 
maritime captaining skills and interdiction expertise in coastal and 
Great Lakes environments. The BPA-M position within the Border Patrol 
provides water-borne capabilities in riverine and similar environments.
    OAM is responsible for fleet budgeting, management, and procurement 
for all vessels (numbering 298) in the CBP vessel inventory, which 
includes the vessels assigned to the coastal and riverine patrol and 
intercept missions.
    CBP currently has 375 BPA-M's assigned to 39 OBP Stations 
conducting riverine patrols and 349 OAM MIA's assigned to 30 OAM Marine 
Units conducting coastal interdiction and patrol operations in the 
littoral approaches to the United States.
        Questions From Hon. Jeff Duncan for Michael C. Kostelnik
    Question 1. One of the good things I have heard from the Seahawk 
center in Charleston is that they are able to use blue force tracking 
tools to monitor law enforcement assets and where they are within the 
port. Do all or some of your Air and Marine boats have blue force 
tracking tools onboard so that their operations can be monitored and 
viewed as part of the common operating picture for their areas? If so, 
are other agencies, such as the Coast Guard, when necessary, able to 
see these blue force tracking data on their Common Operating Pictures 
for the harbors?
    Answer. OAM and the USCG have vessels that are equipped with 
Automatic Identification Systems (AIS) that transmit real-time position 
data to other similarly equipped USCG/OAM vessels and command centers. 
CBP OAM currently has 77 marine vessels equipped with AIS capable of 
processing and displaying encrypted AIS data.
    AIS provides increased situational awareness and safety during a 
maritime response by enabling air, surface, and command center assets 
to determine the real-time location of surface assets with a common 
operational picture on an equipped vessel and/or aircraft.
    Additionally, operators of vessels with AIS capability can 
determine what assets are available to respond in emerging situations, 
providing increased situational awareness among ``blue'' forces that 
can help mitigate uncertainty in dynamic situations, reducing the 
potential for blue-on-blue encounters, and increasing the probability 
of mission success.
    Question 2. Admiral Zukunft and General Kostelnik, the Coast Guard 
operates more than 1,000 small boats. CBP Air and Marine has almost 300 
small boats. But between the two agencies, there is only one shared 
platform: The 33 ft Special Purpose Craft-Law Enforcement. The Coast 
Guard has 44 of these boats and Air and Marine have 21. It makes sense 
to share assets and consolidate acquisitions, especially in today's 
austere budget environment. What efforts have your two agencies taken 
to develop additional common platforms? How are you coordinating 
acquisitions to reduce costs to the Federal Government?
    Answer. CBP coordinates extensively with the U.S. Coast Guard 
(USCG) to take advantage of efficiencies, where practical, particularly 
with respect to marine vessel acquisition, maintenance, and training. 
This relationship is maintained through our participation in the DHS-
sponsored Boat Commodity Council.
    OAM and USCG share Operational Requirements Documents (ORD) during 
the planning stages of vessel procurements. In addition, OAM has 
allowed for USCG to share capacity on OAM's new Coastal Interceptor 
Vessel (CIV) contract if the vessel meets their operational 
requirements.
    Over the past 3 years, the USCG has transferred custody of 99 
vessels to CBP. Of those, 58 have been refurbished and placed into 
service in support of CBP's riverine operations. The transfer of these 
vessels has enabled CBP to offset a portion of its near-term riverine 
vessel investments totaling nearly $19 million (including the amount 
needed to repair and upgrade the vessels and to provide engines). The 
remaining boats will be entered into service as funding permits, and as 
ready pool vessels deployed to meet surge requirements, to replace 
severely damaged vessels, or to augment marine sites in response to 
changing threats.
    A maintenance facility has been established at the National Marine 
Center (NMC) in St. Augustine, Florida. The NMC handles and directs all 
maintenance requirements for the CBP maritime fleet. As part of the 
Boat Commodity Council, the NMC also provides maintenance support to 
the U.S. Coast Guard's fleet of 33 SAFE Boats. This joint service has 
resulted in substantial savings and will continue in coming years.
    As a result of the Boat Commodity Council, CBP and USCG also share 
practices and training opportunities. For example, CBP has provided 33 
SAFE Boat indoctrination training and Small Boat Interdiction Program 
training for USCG personnel. The Small Boat Interdiction Program 
includes high-speed pursuit tactics, warning shots, and disabling fire. 
CBP has also detailed agents to the Joint Maritime Training Center 
(JMTC) at Camp Lejuene, North Carolina to evaluate courses and topics 
of value to CBP.
    OAM is currently in the contract selection phase of procurement of 
a new Coastal Interceptor Vessel (CIV) to replace its fleet of aging 
Midnight Express interceptor vessels. This contract was specifically 
written to permit the USCG to procure CIVs if they desired.
    Questions From Chairwoman Candice S. Miller for Paul F. Zukunft
    Question 1. We are working towards Port Security Authorizing 
Legislation later this year. One possible idea we are considering is 
allowing the Coast Guard to develop voluntary training standards for 
State and local marine law enforcement agencies in order to certify 
these boat operators and ensure that they can both operate in a safe 
and effective manner, and that they are using tactics and procedures 
that are interoperable with the Coast Guard and other key maritime law 
enforcement agencies. Can you explain to us what a framework like this 
would look like? Why would developing interoperable standards be 
helpful to DHS?
    Answer. To comply with Section 828 of the Coast Guard Authorization 
Act of 2010, the Coast Guard is working with its State and local 
enforcement partners in producing National standards for training and 
credentialing of law enforcement personnel. A comprehensive standard 
for the training, typing, and credentialing provides interoperability 
and collective partnerships of Federal, State, county, and local law 
enforcement officers. It will help unify National resources, enhance 
the Coast Guard's capabilities and provide increased safety and 
security for our citizens within the maritime domain.
    Question 2. On July 7, 2011, DHS released the Maritime Operations 
Coordination Plan (MOC-P). I feel this plan has been long overdue and 
is a step in the right direction, however it seemed to be lacking in a 
few areas. How do you feel about the effectiveness of this plan? What 
areas do you feel the plan could be strengthened?
    Why did it take so long for DHS to release this plan?
    Does this plan include a mechanism for sharing best practices 
between different regions? Does it include a process for feedback to 
filter up and down between DHS and the regional commands? Does it 
include a process for local and State law enforcement agencies and 
other stakeholders to push out feedback about their regional commands 
to DHS?
    How is DHS going to know if this plan is working? How are you going 
to measure success?
    Answer. The plan will make regional coordination more effective and 
consistent. Since September 11, 2001, maritime port partners have been 
cooperating in varying degrees. A requirement for maritime operations 
coordination was first set in the SAFE Port Act of 2006, directing the 
establishment of Interagency Operations Centers (IOC) for port 
security. In that same year, the Coast Guard and U.S. Customs and 
Border Protection established a Senior Guidance Team (SGT) to 
coordinate their efforts in areas of joint concern. In 2009, the 
Department of Homeland Security published the Maritime Port Operations 
Handbook detailing best practices for port operations. In 2011, the SGT 
(which now includes U.S. Immigration and Customs Enforcement determined 
that additional guidance was needed to ensure a consistent, repeatable 
effort among its components. The result was the Maritime Operations 
Coordination (MOC) Plan.
    The Plan clearly establishes consistency in the boundaries of the 
regional coordination efforts, based upon the Coast Guard Sector area 
of responsibility. It provides a reporting mechanism for feedback to 
move up and down the chain through required report for implementation 
plans and membership. This will include incorporation of feedback/
membership by other Federal, State, local, and Tribal agencies.
    The initial implementation status report will be provided to the 
SGT in the fourth quarter of 2011. Based upon the review of those 
plans, the SGT will determine what, if any, additional reporting will 
be required and if any changes/strengthening of the plan is needed.
    An additional feedback mechanism from the MOC plan efforts will be 
the incorporation of the IOC for each of the ports into the MOC Plan. 
The SGT has a standing work group on IOC cooperation which continues to 
report to the SGT. This work group has promulgated IOC ``Best 
Practices'' in the past and will provide the mechanism for the regional 
MOC plans. The MOC plan also designates the Air and Marine Operations 
Center (AMOC) as the National focal point where information provided by 
the regional centers is aggregated and disseminated for improved 
maritime domain awareness across the regions. Using the CBP Office of 
Air and Marine-sponsored and jointly-staffed AMOC in this role will 
ensure that critical information is shared in a timely, accurate, and 
actionable manner across the maritime community of interest.
    Finally, the measure of success for the MOC Plans will be the 
degree in which the Regional Coordinating Mechanisms are involved in 
the routine planning of operations, exercises, and responses to 
unplanned events.
           Question From Hon. Mike Rogers for Paul F. Zukunft
    Question. At a March 15, 2011 hearing with this subcommittee, CBP 
testified that its Guardian UAVs cost roughly $3,500 per hour. When 
comparing their costs per hour to the cost per hour of a HC-144 or a C-
130, the Guardian appears to be significantly less expensive. Based 
upon these cost figures, has the Coast Guard increased its focus on 
acquiring and using UAVs to conduct maritime surveillance?
    Answer. While the Coast Guard does not yet operate unmanned 
aircraft, they do offer some economic benefits over manned aircraft for 
specific surveillance purposes. However, they do have limitations 
relative to manned aircraft, including weather restrictions and are not 
able to conduct other missions (e.g. SAR) that manned aircraft can 
perform. Overall, based on the potential advantages of this technology 
to augment the current aircraft fleet, the Coast Guard has steadily 
increased its focus on acquiring unmanned systems to augment our multi-
mission patrol assets.
    Since fiscal year 2009, the Coast Guard established key 
partnerships with the Navy and U.S. Customs and Border Protection (CBP) 
to participate in joint development of unmanned aircraft, focusing 
largely on demonstration efforts for Firescout and Predator B airframes 
already in the Navy and CBP inventories. These initiatives have been 
accomplished with minimal costs and fostered important progress in 
adapting to maritime environments and developing effective mission 
systems.
    In addition, Coast Guard has created a unmanned aircraft systems 
(UAS) platform manager position, established a UAS Standardization 
Branch, qualified several UAS pilots and sensor operators, and assigned 
personnel to cross-train with CBP crews, and strengthen CBP and Navy 
operational evaluations. By continuing to work closely with CBP and 
teaming with their UAS operators, the Coast Guard can maintain UAS 
operator training, proficiency, and develop tactics and procedures 
manuals. These efforts will allow progress in acquisition efforts.
        Question From Hon. Michael T. McCaul for Paul F. Zukunft
    Question. Last year's Deepwater Horizon accident proved that the 
Coast Guard Maritime Contingency Plan for Louisiana was insufficient; 
it failed to take into account a spill of such magnitude. The Captain 
of the Port is in charge of developing a similar plan for security, 
known as the Area Maritime Security Plan (AMSP), for each Coast Guard 
Sector. Are these AMSPs fully complete, or do they have similar holes 
like the Maritime Contingency Plan in Louisiana did?
    I fear that without the proper oversight of these plans, if a major 
security incident were to occur in a port, it would be too late to find 
out then that the current plans are inadequate. What is the USCG doing 
to ensure that this is not the case? Is there is a system for oversight 
and review of these plans in order to ensure they meet all requirements 
and take into account a variety of possibilities for different 
Transportation Security Incidents?
    Answer. The Nation's Area Maritime Security (AMS) Plans are 
complete, comprehensive, and compliant with all current directives. The 
Coast Guard's Atlantic and Pacific Area Commanders have approved these 
plans after extensive review and have determined that they meet the 
requirements established by the Maritime Transportation Security Act 
(MTSA) of 2002, the MTSA implementing regulations in 33 Code of Federal 
Regulations Part 103, and the Security and Accountability for Every 
Port Act of 2006. These community-based plans were first certified in 
2004 in coordination with the respective Area Maritime Security 
Committees (AMSC) and other maritime stakeholders. Using the Coast 
Guard's Maritime Security Risk Analysis Model (MSRAM), the top three 
most likely Transportation Security Incidents (TSI) scenarios for each 
of 43 separate Captain of the Port zones are identified by the AMSC, 
and procedures for responding to these TSI scenarios are established 
within the plan. The AMS Plans are exercised annually within the Coast 
Guard's Area Maritime Security Training and Exercise Program and the 
results are used to improve the plans on a continuous basis. The plans 
are also required to be formally reviewed and updated every 5 years, as 
outlined in MTSA.
    These plans were last formally updated in 2008-2009 to include 
salvage response procedures in compliance with new SAFE Port Act 
requirements. The updates also included significant improvements to 
Maritime Transportation Security (MTS) Recovery elements by 
incorporating lessons learned from Hurricanes KATRINA and RITA and use 
of an all-hazard compatible MTS Recovery plan template. The updated AMS 
Plans were formally reviewed by Coast Guard District Commanders and 
approved by Coast Guard Area Commanders by August 2009. The AMS Plans 
address protection, prevention, response, and initial recovery from 
potential terrorist events or TSI and contribute significantly to the 
Nation's maritime security preparedness and MTS resiliency.
         Question From Hon. Benjamin Quayle for Paul F. Zukunft
    Question. Admiral Zukunft and General Kostelnik, how are your two 
agencies leveraging your relationship with the each other to find 
administrative and operational cost savings? It seems you both have 
small boat units in 23 different harbors. Are you sharing pier space, 
training programs, or maintenance programs to find reduced costs?
    Answer. Yes, there is a Government structure set up to leverage 
efficiencies. The Department of Homeland Security (DHS) Boat Commodity 
Council (BCC) is co-chaired by the Coast Guard and U.S. Customs and 
Border Protection (CBP) and is comprised of the Coast Guard, CBP, and 
the Federal Law Enforcement Training Center. The Coast Guard and CBP 
share some common assets, logistics support, training, tactics, 
techniques, and procedures through innovative management practices 
executed by the BCC. Some examples include: Reutilization of small 
between DHS components, joint Personnel Protective Equipment contract 
for standard dry suits and personal locater beacons, joint maintenance 
facilities for Coast Guard/CBP assets in seven locations and a bulk 
fuel purchase agreement allowing CBP to fuel at Coast Guard facilities 
throughout the Great Lakes.
    The Coast Guard, CBP, and U.S. Immigration and Customs Enforcement 
collaborate on the sharing of sensor data across the DHS enterprise. In 
addition to sensors, DHS's ability to share information and 
intelligence is maturing, allowing for a holistic and integrated 
display of data that is specific to the current event, actionable, and 
draws from a variety of sources. One of the greatest difficulties in 
fusing sensor and video cameras is the lack of universal standards, 
which leads to significant cost to integrate disparate video and radar 
formats in one operating picture. The SGT has commissioned a working 
group to identify additional data, whether sensor or database derived, 
that should be shared. The implementation of the MOC plan will further 
highlight which individual databases contain the most relevant 
information across the enterprise. This in turn will allow DHS to 
prioritize limited resources to attain the greatest operational 
benefit.
          Questions From Hon. Scott Rigell for Paul F. Zukunft
    Question 1. The Watchkeeper software has been in development since 
2007. It has already been proven helpful in many ways. Our subcommittee 
staff was able to visit Hampton Roads last week and saw that some 
features are still lacking. Specifically, there is no radar overlay in 
the common operating picture and there does not seem to be the ability 
for agencies to share video feeds from different security cameras.
    Is the Coast Guard working on these issues? When do you expect them 
to be rectified?
    What does the Coast Guard need in order to fully implement 
Watchkeeper as an operational tool for information sharing and 
collaboration?
    Answer. Yes, the Coast Guard has identified the Watchkeeper sensor 
management and radar overlay issues for priority work.
    Watchkeeper acquisition project Segments 1 (WatchKeeper, interface 
to existing databases) and 2 (Sensor Management--app to Watchkeeper for 
maneuvering authorized existing cameras and radars) provide an 
operational tool for information sharing and collaboration.
    Question 2. The Coast Guard's International Port Security Program 
is required to inspect the security standards at every port shipping 
goods to America every 3 years. Do you think that it would be helpful 
to allow some countries and international organizations that are 
already inspecting themselves, to simply share their results with us? 
Would utilizing these results be good enough for the Inspection 
Program? Would this help make the program more efficient and better 
utilize our scarce taxpayer dollars?
    Answer. The Coast Guard's International Port Security (IPS) Program 
does not inspect every port in every foreign country that conducts 
maritime trade with the United States. Instead, the IPS Program 
examines how foreign countries are implementing the International Ship 
and Port Facility Security Code, and typically visits a sample of ports 
or port facilities within a country to make an assessment.
    It could be helpful to utilize the work of some countries and 
international organizations as the basis for the assessment 
determination. In recognition of this potential efficiency, the Coast 
Guard is currently developing a Memorandum of Understanding (MOU) with 
the European Commission on ``Mutual Recognition'' of each other's 
inspections. It is anticipated that the MOU will be completed during 
the fall of 2012. Relying on other organizations or nations will only 
be feasible if the country or organization could demonstrate that it 
has an effective inspection and oversight regime in place, is willing 
to fully share its results, and will allow the IPS Program to 
periodically audit or verify their inspection regime. In this way, the 
IPS Program could devote more attention to higher-risk countries with 
weaker security, more efficiently utilizing given resources.

                                 <all>

</pre></body></html>
